                                Office of Inspector General
                               Corporation for National and
                                        Community Service




AUDITOF CORPORATION FOR NATIONAL AND COMMUNITY
     SERVICE GRANTSAWARDED  TO THE ILLINOIS
          COMMISSION ON VOLUNTEERISM
             AND COMMUNIMSERVICE

               OIG REPORTNUMBER 06-25
                  FEBRUARY22,2006




                                               $7fY6hAL&
                                               COMMUNITY
                                               SERVICE-




                        Prepared by:

                 LEONARD G. BIRNBAUM
                   and COMPANY, LLP
                   6285 Franwnia Road
                  Alexandria. VA 22310



This report was issued to Corporation management on February 22, 2006.
Under the laws and regulations governing audit follow-up, the Corporation Is to
make final management decisions on the report's findings and
recommendations no later than August 22, 2006, and complete its corre.ctive
actions by February 22, 2007. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                      rmxo!i(3kAL &
                                      COMMUNITY
                                      SERVICE=



              Audit of Corporation for National and Community Service
    Grants Awarded to Illinois Commission on Volunteerism and Community Service
                                 Audit Report 06-25

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Leonard G. Bimbaum and Company, LLP (Bimbaum) to perform
an incurred-cost audit of grants awarded to the Illinois Commission on Volunteerism and
Community Service (Commission).

The auditors questioned $1,672,068 in grant costs, and $892,349 in education awards.
The questioned grant costs are approximately 10.3 percent of the $16,263,960 in total
costs claimed by the Commission. Costs questioned for allowability represent: an alleged
violation or provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds; a finding that, at the time of
the audit, certain costs were not supported by adequate documentation; or a finding that
the expenditure of funds for the intended purpose was unnecessary or unreasonable. The
auditors also identified $7,532 in lost interest income, and found instances of
noncompliance with Federal regulations and grant requirements, some of which are
considered material weaknesses.

In its response to the draft audit report, the Commission disagreed with some of the costs
questioned by the auditors that are related to match and compliance issues. These issues
will be resolved with the Corporation during the audit resolution phase.

The OIG reviewed Bimbaum's report and related documentation and made necessary
inquiries of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the Commission's financial statements,
conclusions about the effectiveness of internal control or conclusions on compliance with
laws and regulations. Bimbaurn is responsible for the attached auditor's report dated
September 14, 2005, and the conclusions expressed in the report. However, our review
disclosed no instances where Bimbaurn did not comply, in all material respects, with
generally accepted government auditing standards.

The OIG provided officials of the Commission and the Corporation with a draft of this
report for review and comment. Their responses are included as Appendices A and B,
respectively.

This report is a matter of public record and its distribution is not limited.


                                                 *
                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                                                                                     USA=
                                      *
                      202-606-9390 Hotline: 800-452-8210 www.cncsig.gov
                                                                                     Freedom Corps
                       Senior Corps       AmeriCorps   * Learn and Serve America     hhake o D~ffirenceVolunteer
                      Audit of Corporation for National and Community Service
                                      Grants Awarded to the
                    Illinois Commission on Volunteerism and Community Service


                                                      Table of Contents



REPORT SUMMARY AND HIGHLIGHTS
        Executive Summary .......................................................................................................
                                                                                                                              I
        Purpose and Scope of Audit ..........................................................................................
                                                                                                                           .2
        Background ................................................................................................................... .4
        Costs Questioned ..........................................................................................................
                                                                                                                                S

        Compliance ....................................................................................................................6
        Internal Controls ............................................................................................................8
        Exit Conference.. ....................................................................................,8
        Report Release.. ..................................................................................... .8

INDEPENDENT AUDITOR'S REPORT ...................................................................................9
FINANCIAL SCHEDULES
        Consolidated Schedule of Award Costs......................................................................... 11
                      -
        Exhibit A Schedule of Award Costs:
                  AmeriCorps ................................................................................................13
                  Schedule A-1 - Schedule of Award Costs:
                                 Literacy Volunteers of America -Illinois .................................15
                  Schedule A-2 - Schedule of Award Costs:
                                 Rend Lake College - Land of Lincoln ................................... .20
                  Schedule A-3 - Schedule of Award Costs:
                                 Rend Lake College - Southern Seven ......................................22


                  Schedule A-4 - Schedule of Award Costs (Competitive):
                                 Southern Illinois University at Edwardsville ............................24
               Schedule A-5 - Schedule of Award Costs (IWA Formula):
                              Southern Illinois University at Edwardsville - IWA ................27
                                 -
               Schedule A-6 Schedule of Award Costs (Formula):
                            Southern Illinois University at Edwardsville.. ......................29
              Schedule A-7 - Schedule of Award Costs:
                            American Red Cross (Competitive). ................................
                                                                                            31
              Schedule A-8 - Schedule of Award Costs:
                            American Red Cross (Formula). ...................................
                                                                                           ..34
              Schedule A-9 - Schedule of Award Costs:
                            University of Chicago.. ...............................................36

     Exhibit B - Schedule of Award Costs:
                  Promise Fellows.. .......................................................................................
                                                                                                                         38
     Exhibit C - Schedule of Award Costs:
                  Program Development and Training (PDAT) ..........................................40
     Exhibit D - Schedule of Award Costs:
                  Administrative ........................................................................................42

COMPLIANCE AND INTERNAL CONTROLS

     Independent Auditor's Report on Compliance and Internal Controls
            Over Financial Reporting .................................................................................
                                                                                                                   .47
              Compliance Findings .......................................................................................
                                                                                                                     .48
                                      . .
              Internal Control Fmdings ................................................................................. .64
                 Follow-up on Pre-Audit Survey Findings:                  ................................................... .68
RESPONSES TO REPORT

      Illinois Commission on Volunteerism and Community Service ................. Appendix A
      Corporation for National and Community Service ...................................... Appendix B
REPORT SUMMARY AND HIGHLIGHTS
                                LEONARD G. BIRNBAUM AND COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                  WASHlNGTON OFTICE
                                                 6285 FRANCONIA ROAD
                                               ALEXANDRlA. VA 22310-2510

                                                      703-922-7622
                                                   FAX: 703-922-8256
LESLIE A. LEIPER                                                                                      WASHINGTON, DC
LEONARD G. B W A U M                                                                               SUMMIT,NEW JERSEY
DAVID SAKOFS                                                                                 REDWOOD CITY, CALIFORNIA
CAROL A. SCllNElDER
DORA M. CLARKE




        Office of Inspector General
        Corporation for National and Community Service


        This report is issued under an engagement to audit the costs claimed by the Illinois Commission
        on Volunteerism and Community Service (Commission) and its subgrantees from July 1,2001,
        through December 3 1,2004, under the grants awarded by the Corporation for National and
        Community Service (Corporation). This report focuses on the audit of claimed costs, instances
        of noncom~liancewith ~ederallaws, applicable regulations or award conditions, and internal
        control weaknesses resulting from the audit of the Commission and its subgrantees.

                                              Executive Summary

        We question costs totaling $1,672,068, or approximately 10.3 percent, of the $16,263,960 in
        costs claimed by the Commission. In addition, we questioned $892,349 in ArneriCorps Member
        Education Awards. A questioned cost is (1) an alleged violation or provision of law, regulation,
        contract, grant, or cooperative agreement, or other agreement or document governing the
        expenditure of funds; (2) a finding that, at the time of the audit, such cost was not supported by
        adequate documentation; or (3) a finding that the expenditure of funds for the intended purpose
        was unnecessary or unreasonable.

        While these amounts are significant in relation to the dollars audited, they are the result of a
        relatively small number of issues. Of these questioned costs, $874,707 is for the Administration
        grant's matching requirement. An additional $480,719 of questioned costs resulted from a lack
        of member criminal background checks at various subgrantees. We also found an instance of
        lost interest, estimated at $7,532, and other questioned costs resulted from documentation
        problems.

        Many of the subgrantees' findings were also noted in Commission monitoring reports. However,
        the monitoring reports did not monetize, where possible, the effect of the condition, and repeat
        conditions were not always highlighted.
                                  Purpose and Scope of Audit

Our audit covered the costs claimed under Corporation Grant Numbers 00ASCIL014,
03ACHIL001,00ASFIL014,03AFHIL002,01APSIL014,03KCHIL002,01DSCIL015,
04CDHIL001,O2PDSIL014,OlSCSIL014 and 04CAHIL001.

The objectives of our audit were to determine whether:

           the Commission financial reports fairly presented the financial results of the awards;

           internal controls were adequate to safeguard Federal funds;

           the Commission and its subgrantees had adequate procedures and controls to ensure
           compliance with Federal laws, applicable regulations, and award conditions, as well
           as ensure that member services were appropriate;

           award costs reported to the Corporation were documented and allowable in
           accordance with the award terms and conditions; and

           the Commission had established adequate oversight and informed subgrantees of the
           Corporation's Government Performance and Results Act (GPRA) goals.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the
United States. These standards require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed against the grants, as presented in the
Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs
(Exhibits A through D) are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in Exhibits A through D. An audit also
includes assessing the accounting principles used and significant estimates made by the auditee,
as well as evaluating the overall financial schedule presentation. Our audit included reviews of
audit reports and working papers prepared by the independent public accountants for the
Commission and its subgrantees, in accordance with the requirements of OMB Circular A-133,
Audits ofstates, Local Governments and Non-proj?t Organizations. We believe our audit
provides a reasonable basis for our opinion. We conducted our audit fieldwork between May 16
and September 14,2005, at the Commission Office in Springfield, Illinois, the Corporation's
offices in Washington, D.C., and selected Commission subgrantees.

With regard to GPRA, AmeriCorps grantees and subgrantees provide progress reports that are
maintained in the Corporation's Web Based Reporting System (WBRS). In the Commission's
application process, subgrantees are required to provide performance measurement objectives,
which are used to rate the program's effectiveness in reaching its goals and desired outcomes.
The Commission monitors the subgrantee's performance measurements through the submission
of biannual progress reports. The reports list the performance measurements outlined in the
subgrantee's application and address these measurements to provide informatiodindicators of
how well they are performing. Module E of the Commission's Program Review Instrument
helps the Commission assess performance; the results of this module are provided to the
subgrantee in a letter. This leker is documented in the files and lists the programs strengths and
weaknesses where improvements can be made. At the end of every year, a Commission Grantee
Progress Report is completed based on the progress reports submitted by all of its subgrantees.
A comprehensive assessment of all Corporation-funded programs is made that addresses how
                                                        -   -

each of the areas' objectives was met. The results of this comprehensive assessment are then
submitted to the State Commissioners, who review the results and then submit them to the
Corporation. The Commission takes corrective action on identified reporting deficiencies. In
summary, the process appears to be operating as intended.

Our audit of the Commission included testing of financial transactions, compliance, and internal
controls of the following program awards:


  Program             Award Number                Award Period                Audit Period
AmeriCorps            00ASCIL014               7/1/00 to 12131/03         7/1/01 to 12/31/03
AmeriCorps            03ACHILOOl               9/1/03 to 8/31/06          9/1/03 to 9/30/04
AmeriCorps            00ASFIL014               7/1/00 to 12/31/03         7/1/01 to 12/31/03
AmeriCorps            03AFHIL002               9/1/03 to 8131/06          9/1/03 to 9/30/04
Promise Fellows       OlAPSIL014               10/1/01 to 6/30/05         10/1/01 to 12/31/04
Learn & Serve         03KCHIL002               10/28/03 to 10/27/06       10/28/03 to 10/27/04
Disability            OlDSCILOl5               1/1/01 to 6/30/04          1/1/02 to 12/31/03
Disability            04CDHIL001               1/1/04 to 12/31/06         1/1/04 to 12/31/04
PDAT                  02PDSIL014               1/1/02 to 12/31/04         1/1/02 to 12/31/04
Administrative        01SCSILO14               1/1/01 to 12/31/03         1/1/02 to 12/31/03
Administrative        04CAHIL001               1/1/04 to 12/31/06         1/1/04 to 12/31/04

Our audit of the costs claimed by the Commission under these awards disclosed the following:

                                                                   Percentage of
                                                Amounts         BudgeWlaimed Costs
Award Budget                               $   18,708,593            N/A
Claimed Costs                              $   16,263,960          86.9 percent
Questioned Costs                           $    1,672,000          10.3 percent
Questioned Education Awards                $      892,349            N/A
                                          Background

The Corporation, under the authority of the National and Community Service Act, as amended,
awards grants and cooperative agreements to State Commissions and other entities to assist in the
creation of full-time and part-time national and community service programs.

The Commission has received approximately $18.7 million in funding and has drawn down
$16.2 million from the Corporation since 2001. The Commission received funds from the
AmeriCorps Formula, AmeriCorps Competitive, Promise Fellows, Learn & Serve, Disability,
PDAT, and Administrative grant programs. Approximately $14.4 million was distributed to
subgrantees, which are typically nonprofit organizations or educational institutions.

A brief synopsis of the programs and their financial history follows:
                                                             FSR Amounts         Drawdowns
                                                Funding      Claimed Within        Durina
                                               Authorized     Audit Period       Audit Period

00ASCIL014 - AmeriCorps (Competitive) * $ 4,294,888           $     3,641,408   $ 3,641,408
03ACHIL00 1 - AmeriCorps (Competitive)      946,668                   827,668       946,668
00ASFIL014 - AmeriCorps (Formula)         7,957,803                 6,690,014     6,690,014
03AFHIL002 - AmeriCorps (Formula)         2.295.073                 2,081.614     2,295,073
Total AmeriCorps Funds                  $15,494,432               $13,240.704   $13,573.163

OIAPSIL014 - Promise Fellows

03KCHIL002 - Learn & Serve

OIDSCILOI5 - Disability
04CDHIL001- Disability

Total Disability Funds

02PDSIL014 - PDAT                                 264.190            245,536        245.536

01SCSIL014 - Administrative Funds             $ 1,357,492     $     1,357,492 $ 1,179,834
04CAHIL001- Administrative Funds***               508.568             549,975     317.357

Total Administrative Funds
TOTAL - Grants Administered
         by the Commission
      Amounts shown exclude City Year, Inc., a National Direct grant recipient whose costs
      will be audited separately by the Corporation's Office of Inspector General.
**    The difference between the amount claimed and the amount drawn down is generally due
      to timing differences.
***   Amount claimed is greater than grant award. This noncompliance is discussed in the
      Compliance Findings section of this report.



                                      Costs Questioned

AmeriCorps Grants
          Missing Compliance and Eligibility Documents:
             Missing Criminal Background Checks
             Other Missing Eligibility (Age, Education, Citizenship)
             Total Eligibility Issues
          Living Allowance Payments in Excess of Limits
          Miscellaneous Reclassifications

      Total Costs Questioned - AmeriCorps (excluding Education Awards) $     495.426

Promise Fellows Program

      r   Missing Eligibility Documents - Criminal Background Checks     $    182.5 L2

Total AmeriCorps Programs

Administrative Grants

      Matching Costs
      Financial Status Report Error


Program Development and Training Grant

          Miscellaneous UnsupportedAJnallowableItems

Total Questioned - Claimed Costs
Education Awards:

       r AmeriCorps Subgrantees
           AmeriCorps Promise Fellows

       Questioned Education Awards

Total Questioned Costs - Claimed and Education Awards


We also found an instance of lost interest, calculated at $7,532, on advance funding. This
amount is not included in the above questioned costs since there was no corresponding grants'
claimed amount. However, this represents lost income to the government.

In most cases, we used a random sampling method to test the costs claimed. Based upon this
sampling plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we made no attempt to project such
costs to total expenditures incurred based on the relationship of costs tested to total costs. For a
complete discussion of these questioned costs, refer to the Independent Auditor's Report.



                                            Compliance

Our audit disclosed the following instances of uoncompliance with Federal laws, applicable
regulations and award conditions:

    1. The Commission did not have adequate monitoring procedures in place to ensure that
       subgrantees maintained required member records documentation in compliance with
       ~ m k h r p Provisions.
                    s          w e identified the following deficiencies:

           a. Five subgrantees, Literacy Volunteers of America - Illinois (LVA), Southern
              Illinois University at Edwardsville, the University of Chicago, American Red
              Cross and Illinois Coalition for Community Service (ICCS), did not perform
              criminal background checks as required by AmeriCorps Special Provision
              Number 6, h. As part of the AmeriCorps member screening process, criminal
              background checks should be performed on applicants who are expected to have
              substantial direct contact with children or other vulnerable individuals.

           b. Southern Illinois University at Edwardsville (SIUE) destroyed member files
              earlier than the date established in AmeriCorps General Provisions.

           c. Subgrantee member files did not contain required documents and member
              documents were not submitted to the Commission on a timely basis.
2. The Commission's financial management system did not have adequate controls to
   document and support all costs claimed. We identified the following deficiencies:

       a. An amount reported on Financial Status Reports (FSRs) for Administration grant
          04CAHIL001 was in error. The amount claimed on the FSR was greater than the
          Administrative grant award.

       b. Significant Administration grant matching costs may not have been necessary and
          reasonable for the Illinois AmeriCorps program to achieve its objectives.

3. The Commission did not follow requirements in the performance of the Program
   Developmcnt and Training (PDAT) grant. The following deficiencies were noted:

       a. The Commission did not receive prior written approval from the Corporation for
                    -
          PDAT subgrants issued to Public Allies and the Illinois Public Hcalth
          Association.

       b. The PDAT subgrant to the Illinois Public Health Association was pre-funded,
          which resulted in a violation of State regulations and incorrect FSR reporting of
          program year expenditures.

4. The Commission and subgrantees did not submit FSRs on a timely basis.

5. The Commission did not ensure that an advance of Federal grant funds to LVA was
   deposited in an interest bearing account.

6. The Commission did not have adequate monitoring or other procedures in place over
   AmeriCorps member living allowance payments or service hour reporting.

       a. An individual at SIUE received living allowance payments under the AmeriCorps
          grant although this person had never been formally enrolled as a member during
          the program year.

        b. The University of Chicago reported service hours that were performed by an
           individual before that person was enrolled as an AmeriCorps member.

7. The Commission's monitoring procedures did not detect that the subgrantees had not
   complied with all required grant documentation and reporting provisions. We identified
   the following deficiencies:

       a. A consultant was paid by Rend Lake College in excess of the maximum daily
          amount allowed by AmeriCorps provisions.
             b. The University of Chicago and Rend Lake College did not have adequate
                documentation for some donated office space, office supplies, telephone and fax
                services claimed for matching purposes.

             c. Rend Lake College incorrectly claimed a portion of audit costs required by Office
                of Management and Budget (OMB) Circular A-133 as a direct grant cost under
                the Internal Evaluation category.

Finding Numbers 1,2, and 7 are considered to be material weaknesses.'

                                                Internal Controls

     8. The Commission did not have controls in place to ensure that SIUE took appropriate
                                                               - check was inconsistent
        action when information obtained from a criminal background
        with information provided by an applicant on the enrollment form.

     9. The Commission could improve its reporting on monitoring visits by monetizing findings
        where possible, and including a "follow-up" section to report on the current status of
        prior findings.

Finding Numbers 1 through 7 as set forth in the Compliance section of the report, are also
considered findings on internal control.

Finding Numbers 1,2,3, and 4 are considered material internal control weaknesses.


                                                 Exit Conference

The contents of this report were disclosed to and discussed with the Commission and
Corporation at an exit conference on November 2 1,2005. In addition, we provided a draft of
this report to the Commission and to the Corporation for comment. Their responses are included
in their entirety at Appendices A and B, respectively.

                                                  Re~ortRelease

This report is intended for the information and use of the Office of Inspector General,
Corporation for National and Community Service, the Illinois Commission on Volunteerism and
Community Service and its subgrantees, and the U.S. Congress.
--


A material weakness is a reportable condition in which the design or operation of one or more of the internal
control components does not reduce, to a relatively low level, the risk that errors or irregularities in amounts, which
would be material to the financial schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.
                               LEONARD G. BIRNBAUM AND COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                WASHINGTON OFFICE
                                               6285 FRANCONIA ROAD
                                             ALEXANDRIA, VA 22310-2510

                                                    703-922-7622
                                                  FAX: 703-922-8256
LESLIE A. LEIPER                                                                                  WASHINGTON, DC
LEONARD G. BIRNBAUM                                                                            SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                              REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




        OEce of Inspector General
        Corporation for National and Community Service

                                   INDEPENDENT AUDITOR'S REPORT

        We have audited the costs incurred by the Illinois Commission on Volunteerism and Community
        Service (Commission) for the awards listed below. These costs, as presented in the Consolidated
        Schedule of Award Costs and the grant-specific Schedules of Award Costs (Exhibits A through
        D), are the responsibility of Commission management. Our responsibility is to express an
        opinion on the consolidated Schedule of Award Costs, and Exhibits A through D, based on our
        audit.

          Program            Award Number                 Award Period             Audit Period
        AmeriCorps           00ASCIL014                7/1/00 to 12131/03      7/1/01 to 12/31/03
        ~mericois
        AmeriCorps
        AmeriCorps
        Promise Fellows
        Learn & Serve
        Disability
        Disability
        PDAT
        Administrative
        Administrative

        We conducted our audit in accordance with auditing standards generally accepted in the United
        States of America and Government Auditing Standards, issued by the Comptroller General of the
        United States. Those standards require that we plan and perform the audit to obtain reasonable
        assurance about whether the financial schedules are free of material misstatement. An audit
        includes examining, on a test basis, evidence supporting the amounts and disclosures in the
        financial schedules. An audit also includes assessing- the accounting principles used and
        significant management estimates, as well as evaluating the overall financial schedule
        presentation. We believe our audit provides a reasonable basis for our opinion.
In our opinion, except for omission of the supporting source documentation and other open
issues related to the $1,672,068 in questioned costs, the Consolidated Schedule of Award Costs
and the grant-specific Schedules of Award Costs (Exhibits A through D and related Schedules)
present fairly, in all material respects, the costs claimed for the period July 1,2001, to December
3 1,2004, in conformity with generally accepted accounting standards in the United States of
America.
In accordance with the Government Auditing Standards, we have also issued our report, dated
September 14,2005, on compliance and internal controls over financial reporting.
This report is intended for the information and use of the Office of Inspector General,
Corporation for National and Community Service, the Illinois Commission on Volunteerism and
Community Service and its subgrantees, and the US. Congress.




Alexandria, Virginia
September 14,2005
               Illinois Commission on Volunteerism and Community Sewice
                           Consolidated Schedule of Award Costs


                 Coreoration for National and Communitv Service Awards

                                                    FSR's                  Questioned
                                 Approved          Claimed    Questioned    Education
Award Number       Program        Budget            Costs       Costs       Awards Reference

OOASCILO 14     AmeriCorps        $4,294,888    $3,641,408    $372,119     $ 566,999
03ACHIL001      AmeriCorps           946,668       827,668            -
OOASFILO 14     AmeriCorps         7,957,803     6,690,014        6,362         90,450
03AFHIL002      AmeriCorps         2.295.073     2.081.614      116.877        182.925

     Total AmeriCorps            $15.494.432   $13,240.704    $ 495.358    $ 840.374     Exhibit A

OlAPSIL014      Promise Fellows *$   531,000   $    432.288   $ 182.512    $ 51.975      Exhibit B



OlDSCILO15      Disability
04CDHIL001      Disability

     Total Disability

02PDSIL014     PDAT              $   264,190   $    245,536   $ 78.016               -   Exhibit C

OlSCSILOI4      Administrative   $ 1,357,492   $ 1,357,492    $ 469,707    $        -
04CAHIL001      Administrative       508.568        549,975     446.407             -
     Total Administrative        $ 1.866.060   $ 1.907.467    $ 916.114              -   Exhibit D

     Total

* FSRs are not required for the Promise Fellows Program. The amount shown represents funds
drawn down.
                Illinois Commission on Volunteerism and Community Sewice
                        Notes to Consolidated Schedule of Award Costs


1. Summary of Significant Accounting Policies


Reporting Entity

The consolidated Schedule of Award Costs includes amounts budgeted, claimed, and questioned
under AmeriCorps, Administrative, Program Development and Training and other grants
awarded to the Commission by the Corporation for the period July 1,2001, to December 31,
2004.

The Commission awards AmeriCorps grant funds to subgrantees that administer the AmeriCorps
program. The subgrantees report financial and programmatic results to the Commission.


Basis of Accounting

The consolidated Schedule of Award Costs was prepared to comply with the provisions of the
grant agreements between the Corporation and the Commission. The information presented in
the schedule was prepared from the reports submitted by the Commission to the Corporation.
The basis of accounting used in preparing these reports differs slightly from accounting
principles generally accepted in the United States of America as follows:

        Equipment

Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in
the Schedule of Award Costs include the cost of equipment purchased during the period rather
                                         .
than a provision for deureciation. The eaui~ment
                                            A
                                                   acauired is owned by the Commission while
used in the program for which it was purchased or in other authorized programs. However, the
Coruoration has a reversionary interest in the eauivment. Its disposition, as well as the
                                                 A   A




ownership of any proceeds therefrom, is subject to Federal regulations.


        Inventory

Minor materials and supplies are charged to expense during the period of purchase.
                                                                                      Exhibit A
                                                                                     Page 1 of 2

              Illinois Commission on Volunteerism and Community Sewice
                                Schedule of Award Costs
                     Corporation for National and Community Sewice
        Award Numbers 00ASCIL014,03ACHIL001,00ASFIL014,and 03AFHIL002
                                      AmeriCorps

                                                                    Questioned
                                      Claimed       Questioned      Education
Detailed Audits of AmeriCorps          Costs       Claimed Costs     Awards        Reference
Subarantees                             w             u
Literacy Volunteers of America -1L   $l,322,63 1      $ 50,203      $ 22,499       Schedule A-1

Rend Lake College - Land of Lincoln 1,257,936              3,457           -       Schedule A-2

Rend Lake College - Southern Seven      242,800            1,000           -       Schedule A-3

Southern Illinois University
at Edwardsville (Competitive)         1,123,976            5,028       379,125     Schedule A-4

Southern Illinois University
at Edwardsville - IWA (Formula)         256,998                         90,450     Schedule A-5

Southern Illinois University
at Edwardsville - (Formula)             363,200                 -      126,225     Schedule A-6

American Red Cross (Competitive)        542,799          314,43 1      165,375     Schedule A-7

American Red Cross (Formula)            176,471          115,877        56,700     Schedule A-8

University of Chicago - (Formula)       478,942            1.352               -   Schedule A-9

Total - Detailed Audits              $5.765.753      $   495.358    % 840.374
                                                                                         Exhibit A
                                                                                        Page 2 of 2

-
Notes

  1. The total claimed costs include amounts charged to grants by subgrantees that were not tested
     as part of this audit. During the audit period, the Commission had 30 AmeriCorps
     subgrantees including City Year, Inc. (also a National Direct sponsor which is not part of this
     audit). Generally, we used a sampling approach at selected field sites to test the costs
     claimed for Program Years 2001-02 through 2003-04.

  2. Ouestioned Claimed Costs do not include related claimed administrative costs of the
     sibgrantees. These are reported as noncompliance findings only. The allowability of
     administrative costs will be determined on an overall basis for all awards to the Commission.
                                                                                   Schedule A-1
                                                                                     Page 1 of 5

                 Illinois Commission on Volunteerism and Community Sewice
                                   Schedule of Award Costs
                        Corporation for National and Community Service
                        Award Numbers 00ASCIL014 and 03ACHIL001

                          Literacy Volunteers of America -Illinois (LVA)

                                                                                 Reference

Approved Budget (Federal Funds)                                  $1.617.012      Note1
Claimed Costs                                                    $1322.63 1      Note 2
Questioned Costs
   Member Compliance and Eligibility Issues       $ 50,084                       Note 3
   Error in FICA Computations                           119                      Note 4

Total Questioned Costs                                           $   50.203.

Administrative Costs                                             $    2.641     Note 5

Questioned Education Awards                                      $   22.499      Note 6

Estimated Interest Lost                                          $    7.532      Note 7

-
Notes
1. The amount shown above as Approved Budget represents the total funding to LVA for Program
   Years 2001-02 through 2003-04, according to the grant budgets.
2. Claimed costs represent LVA's reported expenditures for the program years tested (2001-02
   through 2003-04).

3. The LVA's program had a variety of non-compliance issues. Compliance testing of
   AmeriCorps members' files revealed that key compliance and eligibility documentation for
   some members was missing. Among those missing documents were criminal background
   checks that apparently were never obtained. This is consistent with findings of the
   Commission's previous oversight reviews. LVA staff told us that the prior monitoring findings
   and recommendations were considered forprosuective corrective action. There was no attempt
                                                                                      Schedule A-1
                                                                                        Page 2 of 5

   to go back and take retroactive actions to bring the prior findings into compliance. However, the
   missing background checks and other documentation dcficicncies raise concerns about (i), the
   adequacy of the selection screening process and (ii), the eligibility of some members and rheir
   related costs. Consequently, we have questioned the members' costs where background-     checks
   and other required eligibility documen&on was not obtained, as follows:

              Missing Criminal Background Checks
              Missing Eligibility Documents
              Missing Eligibility Documents and FICA Error

              Total Compliance and Eligibility Issues Questioned

   Since the background checks or members' eligibility was not supported by source
   documentation in some cases, we questioned the related living allowances, including associated
   costs (FICA, health care, workers compensation, etc.). Questioned costs are summarized by
   Program Year as follows:

       Program Year           Missing Documentation                                Amount
         2001-02              Support for age, citizenship,
                              or required criminal
                              background checks
         2002-03              Support for age, citizenship,
                              or required criminal
                              background checks
       Total Compliance and Eligibility Issues Questioned
       (including associated costs)

4. The amount questioned represents the additional effect of a posting
   computation error in claimed members' FICA costs in Program Year
   2002-02.                                                                    $         119

5. Claimed Administrative costs related to the above questioned items are $2,641.

6. We questioned related Education Awards of $22,499 because of compliance and member
   eligibility issues, as follows:
                Program Year                                                Amounts
                2001-02                                                   $     8,324
                2002-03                                                        14,175

              Totals
                                                                                      Schedule A-1
                                                                                        Page 3 of 5

7. Represents interest lost to the Commission and to the Federal government because LVA did not
   place advance payments into an interest bearing account while awaiting disbursement of the
   funds. This interest is not included with the questioned costs since it was not included in LVA's
   claimed amounts. However, it does represent monies that should have reverted to the
   government.

   The interest lost calculation is a conservative estimate based on when the funds were received
   from the Commission, when the funds were spent (quarterly Periodic Expense Reports) and the
   interest rate (1.341% annually on balances over $100,000) paid by Citibank on LVA funds. Our
   calculation assumes all expenditures shown on the PER occurred on the first day of the period.
   This assumption has the effect of lowering the amount of interest lost.

   A summary of the interest calculation is provided below. On February 27,2003, the funds were
   transferred to an interest bearing account.


                                 Federal                         Estimated
                         PER      Funds               Days        Interest
                        -Date    On Hand
                     Carryover $ 162,705
                      9/3O/2OO1
                     12/31/2001
                      313 112002
                      6/30/2002
                      913012002
                     12131/2002
                      3/31/2003



Commission Response

    The Commission response (Appendix A) did not directly address the individual line item audit
    adjustments in Schedule A-1 above. However, with regard to the general issue of missing
    criminal background checks, the Commission response refers to an Illinois Administrative
    Code regarding the definition of "access to children". This reference states the definition of
    access to children as "... anyperson who ispermitted to be alone
                                                                   ,, outside the visual and
    auditory supervision of(stafJi with children receiving care ... .
                                                                                        Schedule A-1
                                                                                          Page 4 of 5
    The Commission response further states that the subgrantee programs in question submit that
    their AmeriCorps members were not subject to the requirements of the criminal background
    check provision since their members had, at no time, unsupervised access to children.

    There is no specific response addressed to the issues of the other missing "Eligibility"
    documents or to the error in the FICA computation.

    The Commission response stated that the requirement to deposit Federal grant funds into
    interest-bearing accounts is a part of each program's contract with DHS. Literacy Volunteers
    of America's (LVA) failure to do so should be considered an anomaly of the State's
    AmeriCorps programs.
   As for the audit classification of these issues as questioned costs and recommendations that the
   Corporation recoup questioned costs, including   - applicable administrative costs and education
                                                      - >


   awards, the Comn&ion suggests that, even if it is determined that background checks were
   required for these five programs within the guidance of AmeriCorps Provision 6-h and State
   statute, such finding should strictly be a matter of program compliance. Further, the
   Commission believes it would not be appropriate to disallow costs associated with members on
   the basis of missing criminal background checks.

Auditor's Comment

   We believe the statement that the five subgrantees reviewed during this engagement (including
   LVA above) submit that their AmeriCorps members were not subject to the requirements of the
   criminal background provision since their members had, at no time, unsupervised access to
   children, is inaccurate. We do not believe the LVA, and others, made that assertion. During
   the course of our audit, the only subgrantee to make that assertion was the American Red
   Cross. Our comments relative to that subgrantee are included in Schedules A-7 and A-8.
   The LVA did attempt to obtain criminal background checks on its members throughout the
   grants' performance periods, and the Commission oversight reviews also tested periodically for
   this requirement. There was obviously a common understanding that these checks were a
   requirement of the AmeriCorps Provisions at LVA. Costs questioned relate to those criminal
   background checks that were missing from member files and were either never obtained, or
   could not otherwise be located. AmeriCorps Provisions require that criminal background check
   "...documentation must be maintained consistent with state law." [AmeriCorps Special
   Provision No. 6-h (July 2003)l.

   Our recommendations in Compliance Finding No. 1 included suggestions that the Commission
   attempt to identify the applicable Illinois State Law governing the requirement for obtaining
   criminal background checks, and to disseminate such information to the subgrantees for
   guidance. We believe the referenced Illinois Act in the Commission response is the result of
   the Commission's attempt to comply with the audit recommendation. However, this language
   would not cover other vulnerable populations, e.g., seniors, handicapped, etc., which likewise
                                                                                     Schedule A-1
                                                                                       Page 5 of 5

 might require the solicitation of criminal background checks. Moreover, when we discussed
the State's ~oliciesduring the audit. we were advised that. even in the case of schools.. dav. care
centers andsimilar instiGtions, the'organizations tend to get criminal background checks as a
~recautionarvmeasure anvwav, since it is virtuallv impossible to monitor the activities of
kmployees on a 100 percek basis. Likewise, we also would not be in a position to verify the
accuracy of any such assertion on an after-the-fact audit.
However, as previously stated, we do not believe the LVA made such an assertion that its
members ". .. had, at no time, unsupervised access to children ..."
The Commission did not comment on the FICA error or lost interest. Accordingly, our
recommendation with respect to these items remains unchanged.
                                                                                    Schedule A-2
                                                                                      Page 1 of 2

                Illinois Commission on Volunteerism and Community Sewice
                                  Schedule of Award Costs
                       Corporation for National and Community Service
                       Award Numbers 00ASCIL014, and 03AFHIL002

                         Rend Lake College - Land of Lincoln Program
                               Competitive and Formula Funds

                                                                                   Reference
Approved Budget (Federal Funds)
                                                                                   Note 1
       (Competitive - 2 Years; Formula -1 Year)

Claimed Costs                                                                      Note 2
Questioned Costs
   Excess Consultant Charges                                                       Note 3
   Misclassified Audit Costs
   Included in the Evaluation
   Category                                                                        Note 4
Total Questioned Costs




1. The approved budget amount of $1,386,400 represents total funding to Rend Lake College for
   Program Years 2001-02 through 2003-04, per the grant budgets.
2. The claimed costs of $1,257,936 represent the amount of reported expenditures of Rend Lake
   College for the years tested (2001-02 through 2003-04).

3. Costs questioned represent payment to a consultant for a one-day workshop that exceeded the
   $443 daily maximum allowed by ArneriCorps Provision No. 22e, Financial Management
   Provisions, Consultant Services, July 2003. The cost paid for the workshop, excluding travel
   costs, was $800. The difference between the $800 and the $443, or $357, is questioned.
                                                                                       Schedule A-2
                                                                                         Page 2 of 2

4. During the audit period, Rend Lake College charged a portion of the annual audit costs to the
   Evaluation category. In accordance with ArneriCorps Provisions (No. 23a. Administrative
   Costs, Definitions, July 2003 Edition), annual audit costs are administration costs and should be
   charged to the Administration category. Accordingly, we questioned $3,100 of misclassified
   audit costs.



Commission Resvonse
    The Commission response (Appendix A) did not directly address the individual line item audit
    adjustments above in this Schedule A-2. However, with regard to the general issue of
    consultants' costs in the compliance report, the Commission stated the following:

       "Program Officers will emphasize the maximum allowable consultantfees in the
       AmeriCorps program during both monitoring visits and the Program Director Training.
       Reference will be made to the consultantfee limit applying to allfeespaid, bothfor
       AmeriCorps billed services andfor consultantfees used as matchingfunds. Programs will
       be advised to document appropriate preparation costs and other expenses and not simply to
       billfor total consultant expenditures."

    There are no comments related to the reclassification of claimed costs in the "Evaluation"
    category.

Auditor's Comment

    Since the Commission did not dispute the questioned costs, our original recommendation
    remains unchanged.
                                                                                  Schedule A-3
                                                                                    Page 1 of 2
                Illinois Commission on Volunteerism and Community Service
                                  Schedule of Award Costs
                               Award Numbers 00ASFIL014

                         Rend Lake College - Southern Seven Program
                                       Formula Funds
                                                                                  Reference

Approved Budget (Federal Funds - Formula)                        %   269.500      Note 1

Claimed Costs                                                    $==2Auu          Note 2
Questioned Costs
  Misclassified Audit Costs Included
   In the Evaluation Category                                                     Note 3

Total Questioned Costs

Administrative Costs


-
Notes

1. The approved budget amount represents total funding to Rend Lake College, Southern Seven
   Program for Program Years 2001-02 through 2002-03, per the grant budgets.
2. The claimed costs represent the amount of reported expenditures of Rend Lake College,
   Southern Seven Program for the years tested (2001-02 through 2002-03).

3. During the two-year length of this program, Rend Lake College charged a portion of the annual
   audit costs to the Evaluation category. In accordance with AmeriCorps Provisions (No. 23a.
   Administrative Costs, Definitions, July 2003 Edition), annual audit costs are administration
   costs and should be charged to the Administration category. Accordingly, we questioned
   $1,000 of misclassified audit costs.

4. Claimed Administrative costs related to the above questioned items are $51. This adjustment
   includes the effect of the reclassification shown in Note 3 above.
                                                                                    Schedule A-3
                                                                                      Page 2 of 2


Commission Resvonse
   There are no comments related to the reclassification of claimed costs in the "Evaluation"
   category.

Auditor's Comment

   Since the Commission has not commented on the questioned costs, our original
   recommendation remains unchanged.
                                                                                       Schedule A-4
                                                                                         Page 1 of 3
                Illinois Commission on Volunteerism and Community Service
                                  Schedule of Award Costs
                                  Award No. 00ASCIL014

                          Southern Illinois University at Edwardsville
                                       Competitive Funds
                                                                                       Reference

Approved Budget (Competitive Federal Funds)                         $   1.204.820      Note 1
Claimed Costs - "AmeriCorps 1 East St. Louis Program"               $   1.123.976      Note 2
Questioned Costs
   Living Allowances                                                                   Note 3

Total Questioned Costs                                              $       5.028

Administrative Costs                                                $        265      Note 4

Questioned Education Awards                                         $379.125          Note 5




1. The approved budget amount represents total funding to Southern Illinois University at
   Edwardsville (SIUE) for Program Years 2001-02 and 2002-03 for the Competitive Federal
   funds.
2. The claimed costs represent the amount of reported expenditures of SIUE under the
   Competitive grant for the years tested (2001-02 and 2002-03).

3. The amount shown represents the Living Allowance and related fringe benefit costs of an
   individual AmeriCorps member whose selection screening was inadequate. This individual
   filed an application that was found to be incorrect with respect to disclosure of prior felony or
   misdemeanor convictions. The discrepancy was noted during our review of the individual's
   criminal background check. Since the information provided at the time of the application was
   erroneous, we have questioned the member's Living Allowance and associated costs.
                                                                                      Schedule A-4
                                                                                        Page 2 of 3

4. Claimed Administrative costs related to the above questioned items are $265.

   During our planning for this subgrantee testing, we were informed that the members' files had
   been destroyed. After the last oversight review, the subgrantee's program office destroyed all
   of the members' files in an effort to conserve space. This was in violation of applicable records
   retention requirements and made compliance testing more difficult. We questioned Education
   Awards of $379,125 because of the absence of time sheets to support the service hours reported
   in WBRS, andlor the inability to locate criminal background check documentation, as follows:

                              Program Year                                 Amounts
                              2001-02                                      $191,025
                              2002-03                                       188.100

                               Totals

    Many of the questioned Education Awards pertain to members categorized as "Reduced Part
    Time". Pavments made to these individuals were not claimed under the Federal funds portion
    of the grant. Rather, they were included as matching costs. However, these individuals were
    entitled to reduced amounts of Education Awards if they met the minimum required service
    hours for their category. Consequently, there may appear to be an imbalance between the
    amounts of member costs questioned above and the amounts of Education Awards questioned,
    but the adjustment above is considered appropriate.

Commission Response
    The Commission response did not specifically address the questioned costs for the living
    allowance and applicable fringe benefit costs of an individual AmeriCorps member whose
    selection screening was inadequate.

    With regard to questioned education awards due to the destruction of member files at SIUE,
    the Commission offered the following comments:

       "Southern Illinois University at Edwardsville (SIUE) is aware that they inappropriately
       destroyed memberjles and the program is aware that their procedures must change to
       ensurefuture compliance. The requirement to maintain member$les for seven years is
       contained in the program's contract with the Department of Human Services (DHS) and
       DHS will formally notify SIUE of this requirement and of the AmeriCorps General
       Provision Number 27, Retention of Records. Furthermore, the retention of records will be
       reinforced during training conductedfor all program directors and during visits conducted
       by the Commission's AmeriCorps Program Officers. "
                                                                                  Schedule A-4
                                                                                    Page 3 of 3

Auditor's Comment

   Since the Commission did not dispute the destruction of member files or address the other
   questioned costs, our original recommendation remains unchanged.
                                                                                   Schedule A-5
                                                                                     Page 1 of 2
                Illinois Commission on Volunteerism and Community Sewice
                                  Schedule of Award Costs
                               Award Numbers 00ASFIL014

                       Southern Illinois University at Edwardsville - IWA
                                         Formula Funds
                                                                                   Reference

Approved Budget (Formula Federal Funds)                           $   269.477      Note 1
Claimed Costs - IWA Program                                       $   256.998      Note2
Questioned Costs
   Excess Living Allowances                                       $     4.010      Note 3

Total Questioned Costs                                            u
Administrative Costs                                              $       211      Note 4

Questioned Education Awards                                       $    90.450      Note 5



1. The approved budget amount represents total funding to Southern Illinois University at
   Edwardsville (SIUE) - IWA Formula funds for Program Years 2001-02 and 2002-03, per the
   grant budget.
2. The claimed costs represent the amount of reported expenditures of SIUE - IWA Program for
   the years tested (200 1-02 and 2002-03).

3. The amount shown represents the Excess Living Allowance and related fringe benefit costs of
   an individual who received living allowance payments during periods when the individual was
   not officially enrolled as an AmeriCorps member.

4. Claimed Administrative costs related to the above questioned items are $21 1.
                                                                                    Schedule A-5
                                                                                      Page 2 of 2


5. During our planning for this subgrantee testing, we were informed that the member files had
   been destroyed. After the last oversight review, the subgrantee's program office destroyed all
   the member files in an effort to conserve space. This was in violation of applicable records
   retention requirements and made compliance testing more difficult. We questioned Education
   Awards of $90,450 because of the absence of member time sheets to support the service hours
   reported in WBRS, and/or the inability to locate criminal background check documentation, as
   follows:


                              Program Year                               Amounts
                              2001-02                                    $57,375
                              2002-03                                     33.075

                               Totals

    Many of the questioned Education Awards pertain to members categorized as "Reduced Part
    Time". Pavments made to these individuals were not claimed under the Federal funds vortion
    of the grant. Rather, they were included as matching costs. However, these individuals were
    entitled to reduced amounts of Education Awards if thev met the minimum reauired service
    hours for their category. Consequently, there may appear to be an imbalance between the
    amounts of member costs questioned above and the amounts of Education Awards questioned,
    but the adjustment above is considered appropriate.


Commission Response and Auditor's Comment

    Refer to the Commission Response and Auditor's Comment on Pages 25 and 26.
                                                                                       Schedule A-6
                                                                                         Page 1 of 2
                Illinois Commission on Volunteerism and Community Service
                                  Schedule of Award Costs
                               Award Numbers 00ASFIL014

                         Southern Illinois University at Edwardsville
                                       Formula Funds
                                                                                       Reference

Approved Budget (Formula Federal Funds)                           $    363.200         Note 1
Claimed Costs - AmeriCorps / East St. Louis Program                $   363.200         Note 2
Questioned Costs
                                                                  $                    Note 3

Total Questioned Costs

Questioned Education Awards                                        $   126.225         Note 4



   1. The approved budget amount represents total funding to SIUE -Formula funds for
      Program Year 2003-04, per the grant budget.
   2. The claimed costs represent the amount of reported expenditures of SIUE - IWA program
      for the year tested (2003-04).

   3. There were no questioned costs on this grant for the period tested.

   4. During our planning for this subgrantee testing, we were informed that the members'
      records files had been destroyed. Afier the last oversight review, the subgrantee's program
      office destroyed all member files in an effort to conserve space. This was in violation of
      applicable records retention requirements and made compliance testing more difficult. We
      questioned Education Awards of $126,225 because of the absence of supporting member
      time sheets to support the service hours reported in WBRS, andlor the inability to locate
      criminal background check documentation, as follows:

                              Program Year                                   Amount
                                2003-04                                     $126.225
                                                                                 Schedule A-6
                                                                                   Page 2 of 2


      Many of the questioned Education Awards are for members categorized as "Reduced Part
      Time". Payments made to these individuals were not claimed under the Federal funds
      portion of the grant. Rather, they were included as matching costs. However, these
      individuals were entitled to reduced amounts of education awards if they met the minimum
      required service hours for their category. Consequently, there may appear to be an
      imbalance between the amounts of member costs questioned and the amounts of education
      awards questioned, but the adjustment above is considered appropriate.


Commission Resuonse and Auditor's Comment

      Refer to the Commission Response and Auditor's Comment on Pages 25 and 26.
                                                                                  Schedule A-7
                                                                                    Page 1 of 3
                Illinois Commission on Volunteerism and Community Service
                                  Schedule of Award Costs
                                  Award No. 00ASCIL014

                                     American Red Cross
                                      Competitive Funds
                                                                                  Reference

Approved Budget (Competitive Federal Funds)                     %   704.400       Note 1
Claimed Costs                                                   $   542.799       Note 2
Questioned Costs
   Living Allowances                              $ 314.431

Total Questioned Costs                                          $    314.431,

Administrative Costs                                            $     14.247      Note 4

Questioned Education Awards                                                       Note 5




1. The approved budget amount represents total Competitive funding to the American Red Cross
   for Program Years 2001-02 and 2002-03, per the grant budgets.
2. The claimed costs represent the amount of reported expenditures of the American Red Cross
   for the years tested (2001-02 and 2002-03).

3. During our audit, we found that no criminal background checks had been obtained by the
   American Red Cross-Chicago for any AmeriCorps members, even though the program
   involved contact with vulnerable populations. American Red Cross staff advised us that the
   members were supervised and were not alone with children or other vulnerable individuals.
   They indicated that background checks were not required in such cases. We could not verify
   the statement made by Red Cross staff, nor could we find an exemption to the compliance
   requirements of AmeriCorps Provision Number 6, h, "Criminal Record Checks" that would
   eliminate the need for such checks. The amount questioned represents the claimed Living
   Allowance and related fringe benefit costs of members during the periods under audit, as
   follows:
                                                                                       Schedule A-7
                                                                                         Page 2 of 3


                              Program Year                                  Amounts
                                2001-02                                     $141,674
                                2002-03                                      172,757

                                Total

4. Claimed administrative costs related to the above questioned items are $14,247.

5. We questioned related Education Awards of $165,375 because of the absence of criminal
   background checks, as follows:


                              Prouam Year                                   Amounts
                               2001-02                                      $ 73,237


                                Total


Commission Resvonse
    With regard to the general issue of missing criminal background checks, the Commission
    response refers to an Illinois Administrative Code regarding the definition of "access to
    children". This reference states the definition of access to children as "... any person who is
    permitted to be alone outside the visual and auditory supervision of (staff) with children
    receiving care ... ".
    The Commission response further states that the subgrantee programs in question submit that
    their AmeriCorps members were not subject to the requirements of the criminal background
    check provision since their members had, at no time, unsupervised access to children.

Auditor's Comment

    The above referenced definition refers to children only, not to other populations considered to
    be "vulnerable". The American Red Cross staff did advise us that the members were
    supervised and were not alone with children or other vulnerable individuals. They indicated
    that background checks were not required in such cases. However, we could not verify the
    statement made by Red Cross staff, nor could we find any request for, or exemption to, the
    compliance requirements of AmeriCorps Provision Number 6, h, "Criminal Record Checks"
    that would eliminate the need for such checks.
                                                                                Schedule A-7
                                                                                  Page 3 of 3


We noted that the grant programs at the American Red Cross were generally labeled "Safe
Families" programs and the scope of work for these grants included a high percentage of
recipients who were children, seniors, or other groups considered to be vulnerable. The tasks
on these grants included providing certification and non-certification classroom training and
other types of presentations to these groups on subjects such as First Aid / CPR, Babysitting,
Basic Aid, Fire Safety, and HIVIAIDS. In reviewing the Satisfaction Surveys of AmeriCorps
members, we noted that some of the most frequently cited aspects of their experience were
"Working with Kids" and some relatively high percentages of dissatisfaction with supervisors.

Again.
   - . we could not verify on an after-the-fact basis the American Red Cross' assertion that
members had, at no time, unsuuervised access to children or other vulnerable erouus
(emphasis
 . A
           added). However, in view of some of the comments noted in the Satisfaction
Surveys, including comments regarding contacts with children and seniors and some
dissatisfaction with the supervision provided, we felt that such an assertion was at least
questionable. Further, hiissue could be avoided by simply obtaining the checks required by
the AmeriCorps Provision.

Accordingly, our original recommendation remains unchanged.
                                                                                   Schedule A-8
                                                                                     Page 1 of 2
               Illinois Commission on Volunteerism and Community Service
                                 Schedule of Award Costs
                                 Award No. 03AFHIL002

                                     American Red Cross
                                      Formula Funds
                                                                                   Reference

Approved Budget (Formula Federal Funds)                          $   191.858       Note 1
Claimed Costs - "Safe Families Program"                          $   176.471       Note 2
Questioned Costs
   Living Allowances                                             $   115,877       Note 3

Total Questioned Costs                                           $   115.877

Questioned Education Awards                                      $    56.700       Note 4




   1. The approved budget amount represents total Formula funding to the American Red Cross
      for Program Year 2003-04, per the grant budget.
   2. The claimed costs represent the amount of reported expenditures of the American Red
      Cross for the year tested (2003-04).

   3. During our audit, we found that no criminal background checks had been obtained by the
      American Red Cross-Chicago for any AmeriCorps members, even though the program
      involved contact with vulnerable populations. American Red Cross staff advised us that the
      members were supervised and were not alone with children or other vulnerable individuals.
      They indicated that background checks were not required in such cases. We could not
      verify the statement made by the Red Cross staff, nor could we find an exemption to the
      compliance requirements of AmeriCorps Provision Number 6, h, "Criminal Record
      Checks" that would eliminate the need for such checks.

      The $1 15.877 amount shown above as questioned costs represents the claimed Living
      ~ l l o w a n cand
                      ~ related fringe benefit costs of members d&ng the periods under audit due
      to missing criminal background checks. There were no administrative costs claimed under
                                                                              Schedule A-8
                                                                                Page 2 of 2

      Federal funds, only matching costs.

   4. We questioned Education Awards of $56,700 because of missing criminal background
      checks.


Commission Response and Auditor's Comment

      Refer to the Commission Response and Auditor's Comment on Pages 32 and 33.
                                                                                     Schedule A-9
                                                                                       Page 1 of 2
                 Illinois Commission on Volunteerism and Community Service
                                   Schedule of Award Costs
                         Award Numbers 00ASFIL014 and 03AFHIL002

                                      University of Chicago
                                        Formula Funds
                                                                                     Reference

Approved Budget (Federal Funds)                                    $                 Note 1
Claimed Costs                                                      $   478.942       Note 2
Questioned Costs
   Excess Living Allowances                                        $      1.352      Note 3

Total Questioned Costs                                             %      1.352

Administrative Costs                                               $         71      Note4



-
Notes

I.   The approved budget amount represents total funding to the University of Chicago for Program
     Years 2001-02 through 2003-04, per the budget schedules.
2. The claimed costs represent the amount of reported expenditures of the University of Chicago
   for the years tested (2001-02 through 2003-04).

3. Costs Questioned represent the booked amount of member payments to one individual whose
   required criminal background check had not been obtained. In addition, the claimed hours used
   to support this member's service time went back as far as eight months prior to the individual's
   enrollment in the program.

4. Claimed administrative costs related to the above questioned items are $71.


Commission Response
     The Commission response (Appendix A) did not directly address the individual line item audit
     adjustments in Schedule A-10 above. However, with regard to the general issue of missing
     criminal background checks, the Commission response refers to an Illinois Administrative
     Code regarding the definition of "access to children". This reference states the definition of
                                                                                     Schedule A-9
                                                                                       Page 2 of 2

    access to children as " ... anyperson who is permitted to be alone outside the visual and
    auditory supervision of(stafl with children receiving care ... ".
   The Commission response further states that the subgrantee programs in question submit that
   their AmeriCorps members were not subject to the requirements of the criminal background
   check provision since their members had, at no time, unsupervised access to children.

   There is no specific response addressed to the issue of the member's service dates.


Auditor's Comment

   We believe the statement that the five subgrantees reviewed during this engagement
   (including the University of Chicago above) submit that their AmeriCorps members were not
   subject to the requirements of the criminal background check provision since their members
   had, at no time, unsupervised access to children, is inaccurate. We do not believe the
   University of Chicago, and others, made that assertion. During the course of our audit, the
   only subgrantee to make that assertion was the American Red Cross, and our comments
   relative to that subgrantee are included in Schedules A-7 and A-8.

   The University of Chicago did attempt to obtain criminal background checks on its members
   throughout the grants' performance periods, and the Commission oversight reviews also tested
   periodically for this requirement. There was obviously a common understanding that these
   checks were a requirement of the AmeriCorps Provisions at the University of Chicago. Costs
   questioned relate to those criminal background checks that were missing and were either never
   obtained, or could not otherwise be located. AmeriCorps Provisions require that criminal
   background check "...documentation must be maintained consistent with state law."
   [AmeriCorps Special Provision No. 6-h (July 2003)l.

   Accordingly, our original recommendation remains unchanged.
                                                                                           Exhibit B
                                                                                          Page 1 of 2
                 Illinois Commission on Volunteerism and Community Service
                                   Schedule of Award Costs
                        Corporation for National and Community Service
                                 Award Number OlAPSIL014

              Promise Fellows -Illinois Coalition for Community Service (ICCS)

                                                                                       Reference

Approved Budget (Federal Funds)                                      $   531.000       Note 1

Claimed Costs                                                        $   432.288       Note 2

Questioned Costs                                                     %   182.512       Note 3

Questioned Education Award                                           $     51.975      Note 4




1. The approved budget amount represents total funding to ICCS for Program Years 2001-02
   through 2003-04, per the budget schedules. The Promise Fellows Program is not subject to
   Federal Cost Principles. Amounts awarded are based on the approved number of Fellows
   specified in the grant. Reimbursement is made on a formula basis consistent with grant terms
   and AmeriCorps Provisions.

2. Claimed costs represent the funds paid to ICCS based on the number of Promise Fellows and
   the number of hours sewed by each Fellow, consistent with the grant formula computations.

3. The formula used for reimbursement is predicated on calculations based on the number of
   Fellows enrolled and retained during the period, at staggered (first five, second five, etc.)
   reimbursement rates.
   In performing the compliance portion of the audit, we found that there was a significant number
   of missing criminal background checks in the sample tested. Consequently, we expanded our
   review to cover all enrolled Fellows.
   A calculated 42.22 percent of the enrolled Fellows' files lacked a criminal background check.
   Since this element is considered to be a key factor of an adequate "screening process", as
   indicated in AmeriCorps Special Provision Number 6, h, "Criminal Background Checks", the
   amounts claimed for those individuals are considered to be questioned costs.
                                                                                          Exhibit B
                                                                                         Page 2 of 2
  To quantify the impact of this condition, we applied the 42.22 percent noncompliance factor to
  the amount claimed and drawn down by the Commission and paid to the ICCS (42.22 percent of
  $432,288 = $1 82,512).

3. We questioned Education Awards of $51,975 because of missing criminal background checks.


Commission Response
    The Commission resuonse /Avvendix A) did not directlv address the individual line item audit
    adjustments in ~xhiditB ado;;.     ow ever, with regadsto the general issue of missing
    criminal background checks. the Commission resvonse refers to an Illinois Administrative
    Code regardiG the definition of "access to child&'. This reference states the definition of
    access to children as "... anyperson who is permitted to be alone outside the visual and
    auditory supervision of(staff3 with children receiving care ... ".
    The Commission response further states that the subgrantee programs in question submit that
    their AmeriCorps members were not subject to the requirements of the criminal background
    check provision since their members had, at no time, unsupervised access to children.

Auditor's Comment

    We believe the statement that the five suberantees reviewed durine this engagement
    (including ICCS above) submit that their &neri~orpsmembers/f$lows w&"not subject to
    the reauirements of the criminal background check ~rovisionsince their members/fellows had.'
    at no t h e , unsupervised access to chiidren, is inac&rate. We do not believe the ICCS, and
    others, made that assertion. During the course of our audit, the only subgrantee that made that
    assertion was the American Red Cross, and our comments relative to that subgrantee are
    included in Schedules A-7 and A-8.
    The Promise Fellows program is subject to the AmeriCorps Provisions, including the
    reauirement to obtain criminal background checks (Suecia1 Provision Number 6 , h l The
    I C ~ did
          S attempt to obtain ~rirninallback~round chkcks on its fellows throughout the grants'
    uerformance veriods and the Commission oversight reviews also tested veriodicallv for this
    ieyirement. h here was obviously a common un>erstanding that these checks we; a
    reauirement of the AmeriCorvs Provisions at the ICCS. Costs questioned relate to those
    criminal background check d&unentations that were missing ahd were either never obtained,
    or could not otherwise be located. AmeriCorps Provisions require that criminal backnround
    check "...documentation must be maintainedconsistent with &ate law." [ ~ m e r i ~ o r p s ~ ~ e c i a l
    Provision No. 6-h (July 2003)l.
    Accordingly, our original recommendation remains unchanged.
                                                                                      Exhibit C

                Illinois Commission on Volunteerism and Communitv Sewice
                                                                                         -
                                                                                     Page 1 of 2

                                  Schedule of Award Costs
                       Corporation for National and Community Service
                                Award Number 02PDSK014
                            January 1,2002, to December 31,2004

                        Program Development and Training (PDAT)


                                                                                  Reference

Approved Budget (Federal Funds)                                                   Note 1

Claimed Costs                                                                     Note 2

Questioned Costs                                                                  Note 3




   1. The approved budget amount represents total funding to the Commission for Program
      Years 2001-02 through 2003-04, per the budget schedules.

   2. Claimed costs represent the amount of reported expenditures on the PDAT grant.

   3. Costs questioned consist of the following amounts:

      AmeriCorps Opening Day - Late fee (Two Percent)                       $      150
      Opening Day Ceremonies - Public Allies - No Support                       10,718
      Illinois Public Health Association (IPHA) Admin Fee - Limit five
      percent of expenses - Excess over five percent                              976
      Amount Paid IPHA in Excess of Actual Expenses (See Compliance
      Finding Number 3)                                                         66.172

                     Total                                               $78.016
      No labor charges were applied to the PDAT Grant. However, subgrants given to Public
      Allies and IPHA probably did contain labor cost elements.

      No Commission indirect costs or administrative costs are allocated to the PDAT Grant.
      However, IPHA was allowed to charge an administrative fee of five percent of expenses.
                                                                                               ;I
                                                                                               I

                                                                                       Exhibit C
                                                                                      Page 2 of 2

Commission Response
    Comments in the Commission response regarding these issues were as follows:
       "The Commission will establish controls to ensure that all required approvals are obtained
      prior to the initiation ofsubawards associated with the PDAT grant."
        "The Commission will ensure that ifsubgrantee prepayments are necessary, the guidelines
       contained in the AmeriCorps Provisions Nos. 12 and 15 (November 2003), andor any
       revisions to those Provisions, arefollowed. The Commission believes that all funds
       advanced to the lllinois Public Health Association (IPM) were spent on legitimate
      AmeriCorps expenses and we request that thesefunds not be disallowed. In thefiture, the
       Commission will ensure that the subcontracts with itsfiscal agents are closed out prior to
       the end of the program year or we will follow State regulations that require unexpended
      funds to be returned and reissued, i f appropriate. "

Auditor's Comment

    We consider the Commission response to be adequate. Since the Commission has not
    disputed the questioned costs, our original recommendation remains unchanged.
                                                                                           Exhibit D
                                                                                          Page 1 of 5
                 Illinois Commission on Volunteerism and Community Sewice
                                   Schedule of Award Costs
                        Corporation for National and Community Sewice
                         Award Numbers OlSCSIL014 and 04CAHIL001

                                      Administrative Grants
                                                                                       Reference

Approved Budget (Federal Funds)                                      $1.866.060         Note 1
Claimed Costs                                                                           Note 2

Questioned Costs

        FSR Reporting Error                                                             Note 3
        Claimed Matching Costs                                                          Note 4

        Total Questioned Costs

-
Notes

1. The approved budget amount represents total funding to the Commission for Program Years
   2001-02 through 2003-04, per the grant budget.
2. Claimed costs represent the amount of reported expenditures of the Administrative Grant. Note
   that the amount claimed is greater than the Grant Award. This noncompliance is discussed in
   the Compliance Findings section of this report and results in questioned costs as discussed in
   Note 3 below.

3. The amount of funding authorized for this first year of operation under Grant Number 04
   CAHILOOl was $508,568. The amount claimed on the year end FSR was $549,975. The
   difference between authorized and claimed amounts of $41,407 is questioned. Corrections
   were subsequently made to FSR balances during the audit. However, for the period covered by
   this report, the claimed amounts were in error by $41,407.

4. The Administrative Grant requires a Commission to provide a "one to one" dollar match to
   claimed Federal expenditures. To meet this requirement, the Commission has included, among
   other items, portions of Illinois state grants to outside organizations. One of these grants was to
                                                                                        Exhibit D
                                                                                       Page 2 of 5

the Youth Network Council. Amounts claimed as Administrative Match for this organization
during the audit period were $874,707.

The Illinois State grant to the Youth Network Council does not meet the OMB Circular A-87
requirement that a cost is allowable if it is "...necessary and reasonable for proper and efficient
performance and administration of Federal awards", and is ". ..docable to Federal awards
under the provisions of this Circular."
From the information provided by the Commission, it appears that the portions of the costs of
the Illinois State grants to the Youth Network Council being used for Administrative Grant
match were not "necessary and reasonable for proper and efficient performance" of
Commission programs. We believe the programs could have been successfully completed
without the efforts of the Youth Network Council.
The Commission's rationale for the inclusion of these costs as acceptable match is as follows:

 "This is a grant made by DHS tofund Paining and support activitiesfor the Division of
Community Health and Prevention (the division which houses the AmeriCorpsfamily of
programs). As this is a rather large contract, only a small portion of thejknds was claimed as
match. These were the funds that supported the training and support activities of community-
based agencies providing services to at-risk youth. Through this contract, thefollowing
services were made available to all AmeriCorps providers:
              Coordinate andor conduct regional direct service and management training
              workshopsfor providers & direct service staffthat address identified needs
              Coordinate andor conduct worbhops focusing on administrative, service
              delivery, and evaluation issues
              Develop and maintain a library and media resource center accessible statewide
              Provide immediate legislative and news updates - electronically
              Retention of the services of an attorney-at-law who will make available no more
              than 45 minutesper of service-related legal consultation at the request of the
              youth service agency
              Conduct general provider meetingsfor youth service providers
              Publish quarterly newsletters

As is evident in the annual plans of the various AmeriCorps programs, providing services to
youth at risk is a mainfocus of service provision. These activities are intended to supplement
the program support and training activitiesprovided directly by the Commission. Participation
in these activities are encouraged but not required by the Commission. "
                                                                                        Exhibit D
                                                                                       Page 3 of 5
   The Commission's justifications for the use of the Youth Network Council award as
   appropriate for meeting matching requirements are not totally convincing in light of the
   following:

              The Youth Network Council was performing state requested work for some
              time before the establishment of AmeriCorps.
              When we accessed the Youth Network Council website there was no
              mention of AmeriCorps.
              The Youth Network Council contracts with the state made no reference to
              ArneriCorps.
              The former Acting Director of the Illinois Commission stated that he had
              never heard of the Youth Network Council prior to our inquiry, and could
              provide no information on their contribution to the grant.
              The Youth Network Council costs may have been a convenient group of
              State costs that have a relationship to AmeriCorps objectives. Therefore,
              these costs were claimed as matching without directly identifying the
              "necessary and reasonable" criteria in the OMB Circular.

   We question whether these costs were necessary and reasonable for the Illinois AmeriCorps
   orozram to achieve its obiectives. Accordinglv. we have auestioned the matching costs
   h i k e d . Since there is a>orresponding one&-me relaticinship between the rnatrhing and
   Federal funds on the Administration Grant, $874,707 is shown as questioned Federal funds.


Commission Response
   Regarding the FSR error, the Commission reply is as follows:                                 1
        "The amount of Federal expenditures was overstated on the Financial Status Report (FSR)
      for the quarter ending December 31, 2004. However, the Federal draw did not exceed the
       grant award available of $508,568, so the Commission believes this does not represent a
       misuse ofAmeriCorps funds. Administrative costs are now allocated to the AmeriCorps
      program based on the Public Assistance Cost Allocation Plan (PACAP). Costs ident$ed
       through PACAP include expenditure of both AmeriCorps&nds and State oflllinois funds.
       The AmeriCorps costs identified through PACAP are greater than the expenditures
       associated with the AmeriCorpsfimds. The costs reported on the December 31, 2004, FSR
       were overstated due to the fact that the PACAP costs were used. Department of Human
       Services program andfiscal staff have developed an improved method for completing
                                                                                         Exhibit D
                                                                                        Page 4 of 5

      the FSR. Actual expenditures ofAmeriCorpsfinds are now being reported on the FSR,
      rather than the total as determined by the PACAP, since those expenditures are also used
      to determine the Federal draw offinds. AmeriCorpsprogram staffwill review the FSR
      before it is submitted. "
    In response to the issue of questioned matching costs, the Commission responded as follows:
        "The Commission requests that the use of the Youth Network Council (YNC) funding for
                                          . o-.
       training associated with the deliven,  f youth service vroarams be considered an avvroved
       match source given that a similar request to use such&n'iing as match wasprevi&~ly
       approved by the Corporation. Please see the attached letter dated March 7, 200lfrom Mr.
      James E. Phipps, CNCS Senior Grants Ofleer, which states that similarfinds usedfor
       evaluation and training by the State's TEEN Reach program meet the criteria as matchfor
       the administrative award. The Commission subsequently used this basisfor establishing a
       rnatchingfinds source. As the use of such finding was previously approved as a match
       source by the Corporation, and as no subsequent notice has been issued stating that the use
       of such expenditures as a match source is not allowed, the Commission requests that the
      findspaid to YNC be allowed as the program's match."


Auditor's Comment

      We believe the Commission response regarding the FSR error is adequate. However, we
      recommend that the Corporation review the Commission's new method for completing
      FSRs to ensure that it appropriately records the actual expenditures incurred.

      With respect to the matching issue, and as stated in our comments in Exhibit D above, we
      believe that the Illinois State grant to the Youth Network Council does not meet the OMB
      Circular A-87 requirement that a cost is allowable if it is "...necessary and reasonable for
      proper and efficient performance and administration of Federal awards", and is
      ". ..allocable to Federal awards under the provisions of this Circular."
      From the information provided by the Commission, it appears that the portions of the costs
      of the Illinois State grants to the Youth Network Council being used for Administrative
      Grant match were not "necessary and reasonable for proper and efficient performance" of
      Commission programs. We believe the programs could have been successfully completed
      without the efforts of the Youth Network Council.
                                                                                     Exhibit D
                                                                                    Page 5 of 5

The referenced letter from Mr. Phipps in the Commission response deals with requests for
approval to use "TEEN Reach" funds as matching costs for the Administrative Grant for
the Program Year 2001-02. Similar language was in the Commission's proposal
submissions for subsequent years. The questioned matching amounts for the Youth
Network Council (YNC) pertain to Program Years 2002-03 and 2003-04. We found no
approval of YNC funds for matching purposes in those years, nor do we believe that the
two programs are compatible. We do not believe this letter pertains to the issues in
question regarding the Youth Network Council.

As stated previously, the Commission's justifications for the use of the YNC award as
appropriate for meeting matching requirements are not totally convincing in light of the
following:

       The Youth Network Council was performing State requested work for some
       time before the establishment of AmeriCorps.
       When we accessed the YNC website, there was no mention of AmeriCorps.
       The Youth Network Council contracts with the State made no reference to
       AmeriCorps.
       In contacts with representatives of the various AmeriCorps subgrantees
       visited, we could find no involvement of the YNC with any of the
       AmeriCorps programs. Most of the subgrantees had no knowledge of the
       YNC or its organization, nor was there any participation by the subgrantees
       in YNC activities.

       We believe the Commission may have viewed the YNC costs as a
       convenient group of State costs that had a general relationship to
       AmeriCorps objectives. Therefore, these costs were claimed as matching
       without directly identifying the "necessary and reasonable " criteria in the
       OMB Circulars.


In light of these factors, it is difficult to rationalize how the use of YNC funds for matching
purposes meets the OMB Circular A-87 or AmeriCorps Provision requirements that a cost
is allowable if it is "...necessaryand reasonable for proper and efficient performance and
administration of Federal awards", and is ". ..allocable to Federal awards under the
provisions of this Circular [Provision]."

Accordingly, our original recommendation remains unchanged.
                               LEONARD G. BIRNBAUM AND COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                WASHINGTON OFFICE
                                               6281 FRANCONIA ROAD
                                             ALEXANDRIA, VA 22310-2510

                                                   703-922-7622
                                                 FAX: 703-922-8256
LESLIE A. LEIPER                                                                                WASHINGTON. DC
LEONARD 0.BIRNBAUM                                                                           SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                            REDWOOD CITY. CALIFORNIA
CAROL A. SCHNEIDER
WRA M. CLARKE




       Office of Inspector General
       Corporation for National and Community Service

              INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                          CONTROLS OVER FINANCIAL REPORTING

       We have audited the Schedules of Award Costs, as presented in Exhibits A through D, that
       summarize the claimed costs of the Commission under the Corporation awards listed below, and
       have issued our report thereon dated September 14,2005.

         Program            Award Number                Award Period             Audit Period
       AmeriCorps           00ASCIL014               7/1/00 to 12/31/03      7/1/01 to 12/31/03
       AmeriCorps           03ACHIL001               9/1/03 to 8/31/06       9/1/03 to 9/30/04
       AmeriCorps           00ASFIL014               7/1/00 to 12131/03      7/1/01 to 12/31/03
       AmeriCorps           03AFHIL002               9/1/03 to 813 1/06      9/1/03 to 9/30/04
       Promise Fellows      OlAPSIL014               10/1/01 to 6/30/05      10/1/01 to 12/31/04
       Learn & Serve        03KCHIL002               10/28/03 to 10/27/06    10/28/03 to 10/27/04
       Disability           OIDSCILOl5               1/1/01 to 6/30/04       1/1/02 to 12/31/03
       Disability           04CDHIL001               1/1/04 to 12/31/06      1/1/04 to 12/31/04
       PDAT                 02PDSIL014               1/1/02 to 12/31/04      1/1/02 to 12/31/04
       Administrative       01SCSILO14               1/1/01 to 12/31/03      1/1/02 to 12/31/03
       Administrative       04CAHIL001               1/1/04 to 12/31/06      1/1/04 to 12/31/04

       We conducted our audit in accordance with auditing standards generally accepted in the United
       States of America and Government Auditing Standards, issued by the Comptroller General of the
       United States. Those standards require that we plan and perform the audit to obtain reasonable
       assurance about whether the financial schedules are free of material misstatement.
Compliance

Compliance with laws, regulations, and award provisions is the responsibility of the Commission
                                  -
management. As vart of obtaining reasonable assurance about whether the financial schedules are
free of material misstatement, we performed tests of compliance with certain provisions of Federal
laws, regulations, and award terms and conditions. However, our objective was not to provide an
opinion on overall compliance with such provisions.

Instances of noncompliance involve not following requirements or violating prohibitions contained
in statutes, regulations and award provisions.
Comvliance Findines
The results of our tests of compliance disclosed the following instances of noncompliance:
Finding No. 1

       The Commission did not have adequate monitoring procedures in place to ensure that
       subgrantees obtained and maintained required documentation in comvliance with
                                                                            a

       .4&ricorps Provisions. We identified the following deficiencies:

       a. Criminal background checks were not performed as required by the governing
       -
          Amencorps Provision. Five subgrantees, Literacy Volunteers of America - Illinois
          (LVA), Southern Illinois University at ~dwardsville(SIUE), The University of
          Chicago, American Red Cross and Illinois Coalition for Community Service (ICCS),
          did not comply with the Provision, as follows:

                                                                    Files Lacking
                                                                   Documentation
                                               No.          No. Files         Percentage of
                                               Files         Missing          Files Missing
            Missing Documentation             Tested      Documentation      Documentation
       Criminal Background Checks:
       Illinois Coalition for Community
       Service
       Literacy Volunteers of America
       American Red Cross
       Southern Illinois University
       University of Chicago

                As part of the AmeriCorps screening process, criminal background checks should
                be performed on applicants who are expected to have substantial direct contact with
                children or other vulnerable individuals. (Provision Reference: AmeriCorps
              Special Provision Number 6, h, July 2003, Eligibility, Recruitment and Selection,
              Criminal Record Checks).


Commission Response

     "The audit found that Pve of the Commission S subgrantee programs did not comply [with,
    sic] the background check requirements ofAmeriCorps Special Provision No. 6-h (July 2003).
    This Provision states, YmeriCorps programs with members or employees who have
    substantial direct contact with children (as defined by state law), or who perform service in
    the homes of children or individuals considered vulnerable by the program, (including the
   frail, elderly, and disabled) shall, to the extent permitted by state and local law, conduct
    criminal record checks on these members or employees aspart ofthe screeningprocess. "
    State of Illinois statutory language specijk to volunteer workers or employees of notyor-profit
    organizations and relative to the AmeriCorps Provision was not found. However, several
    references to criminal background check requirements for employees working in licensed
    child care institutions, day care centers, and schools were found and these references all
    contained the generally the same following definition ofthe phrase "access to children":
        "...any person who is permitted to be alone outside the visual and auditory supervision of
        (stafl with children receiving care... " (See attached 89 Ill. Adm. Code 385.20.)
    The subgrantee programs in question submit that their AmeriCorps members were not subject
    to the requirements of the criminal background check provision since their members had, at
    no time, unsupervised access to children. However, the Commission wishes to convey to the
    Corporation that it will advise all future subgrantees that even programs that do not
    anticipate members having "unsupervised access" to children must consider the locations in
    which programs will operate and, for those programs where unsupervised access to children
    is apossibility, background checks need to be conducted as a safeguard ofthe program.
   As for the recommendation that the Corporation recoup questioned costs, including
   applicable administrative costs and education awards, the Commission respectjiully suggests
   that, even if it is determined that background checks were requiredfor these five programs
   within the guidance ofAmeriCorps Provision 6-h and State statute, such finding should
   strictly be a matter ofprogram compliance, and the Commission believes it would not be
   appropriate to disallow costs associated with members on the basis ofmissing criminal
   background checks. "


Auditor's Comment

   We believe the Commission's statement that the five subgrantees reviewed during this
   engagement submit that their AmeriCorps members were not subject to the requirements of
   the criminal background check provision since their members had, at no time, unsupervised
   access to children, is inaccurate. We do not believe that all the subgrantees made that
   assertion. During the course of our audit, the only subgrantee to make that assertion was the
    American Red Cross, and our comments relative to that subgrantee are included in Schedules
    A-7 and A-8. Accordingly, our original recommendation remains unchanged.


     b. During our planning for the SIUE subgrantee testing, we were informed that the member
        files had been destroyed. After the last Commission oversight review, the subgrantee's
        program office destroyed all member files in an effort to conserve space. This is in
        violation of governing records retention directives (AmeriCorps General Provision
        Number 27, (July 2003), Retention of Records, which requires grant records to be
        maintained for three years after submission of the final Financial Status Report), and the
        subgrantee's grant terms and conditions.


Commission Response

      Southern Illinois University at Edwardsville (SIUE) is aware that it inappropriately
      destroyed member files and the program is aware that its procedures must change to
      ensurefiture compliance. The requirement to maintain member files for seven years is
      contained in the program S contract with the Department of Human Services (IIHS) and
      DHS will formally notlfi SIUE of this requirement and of the AmeriCorps General
      Provision Number 27, Retention of Records. Furthermore, the retention of records will be
      reinforced during training conductedfor all program directors and during visits conducted
      by the Commission's AmeriCorps Program Officers.


Auditor's Comment

      We consider the Commission's response to be adequate.


    c. Subgrantee member files did not contain certain required documents, and member
    -
       documents were not submitted on a timely basis. As part of our audit, we reviewed
       compliance with ArneriCorps provisions ;egarding thk documentation that should be
       included in member files. The files included much of the necessary documentation.
       However, the schedule on the following page lists missing documentation that requires
       corrective action.
                                                              Files Lacking
                                                              Documentation
                                                                       Percentage of
                                         No.          No. Files             Files
                                         Files      Late I Missing     Late I Missing
        Missing Documentation           Tested      Documentation Documentation
     1. Enrollment Eligibility             55               4                    7
     2. Member Contract
        Contents
     3. Members Mid & End-of-
        Term Evaluations
     4. Member Enrollment &
        Exit Forms Submitted on
        Time
     5. Time Sheet Missing or
        Not Signed by Supervisor

       The ratios of latelmissing documents for Southern Illinois Universitv at
       Edwardsville (SIUE) areVveryhigh. As stated elsewhere in this rep&?, SIUE
       destroved all member files. However, we were able to utilize other sources of
       reliance (e.g., University admission records, SIUE Payroll Department documents.
       etc.) to validate some SIUE comuliance attributes otherwise not available due to the
       destroyed files. However, manyothers could not be traced to supporting
       documentation. As a result, required documentation could not be reviewed or
       compliance requirement validated.

The cause of these problems is the subgrantees' noncompliance with the AmeriCorps
criminal background check provision and other record retention requirements.

The effect is that critical source documentation was not available to establish that basic
eligibility, supervision, compliance, fiscal and other grant requirements were being met.
Accordingly, many of these requirements could not be validated.

Also, the Commission was unable to determine the applicable State law pertaining to
criminal background checks. This lack of guidance may have caused confusion. However,
it should be noted that some subgrantees had the correct criminal record check
documentation while others had incomplete or no documentation.

Inappropriate acts by AmeriCorps members could potentially harm vulnerable individuals
and threaten the existence of the program at the local, state and national levels.
Commission Resvonse

    Site visits by AmeriCorps Program Officers identifzed the issue of missing documentation in
    member files, as well as the lack of timely submission of member data to the Corporation.
    ~onitor&~rocedureswill be refined to ensure adequate oversight ofprograms that have
    additional issues regarding member records. Program Officer staffwill continue to monitor
    member files for completeness and will research and improve its methodfor holding programs
    accountablefor timely submission ofenrollment information.

Auditor's Comment

      We consider the Commission's response to be adequate.

Recommendations

We recommend that the Corporation instruct the Commission to:

      1. Determine the applicable Illinois criminal background check law;
      2. Disseminate the Illinois law information, along with the AmeriCorps requirements, to
         all subgrantees;
      3. ~ e v e l oai procedure that all subgrantees must follow to ensure appropriate background
         checks are performed, including- the maintenance of such record checks for
         documentary evidence;
      4. During monitoring reviews, ensure criminal background checks are being performed in
         accordance with procedures;
      5. Revise its monitoring program to establish which subgrantees need to have additional
         attention paid to member records; and
      6. Recoup questioned costs, including applicable administrative costs and education
         awards, for members without criminal background checks.

Commission Resvonse

      Commission responses to Compliance Findings Recommendations are generally covered in
      the responses to Compliance Findings la, l b and l c above.

Auditor's Comment

      We believe the referenced Illinois Act in the Commission response is the result of the
      Commission's attempt to comply with the audit recommendations 1 and 2. Auditor
      comments regarding individual issues are shown with the respective findings.
Finding No. 2

      The Commission's financial management system did not have adequate controls to
      document and support all costs claimed. We identified the following deficiency:

                a.   Amounts reported on a Financial Status Report (FSR) for the Administration
                     grant 04CAHIL001 were in error. The amount of funding claimed on the
                     Program Year 2003-04 FSR ($549,975) exceeded the authorized grant
                     amount ($508,568). The difference between authorized and claimed
                     amounts ($41,407) is questioned. (Provision Reference: Provisions for
                     Program Development and Training, Disability Placement and State
                     Administrative Awards, November 2003, No. 12. Financial Management
                     Provisions).

                     The causes of the condition are (i), a lapse in communication between the
                     Commission and DHS fiscal staffs, and (ii), a breakdown in the internal
                     control procedures for fiscal reporting.

                     This error represents both a noncompliance issue and a weakness in intemal
                     controls in the performance of the Administration grant, and results in
                     incorrect amounts reported to the Corporation on FSRs.


Commission Response

    "The amount of Federal expenditures was overstated on the Financial Status Report (FSR)for
   the quarter ending December 31, 2004. However, the Federal draw did not exceed the grant
   award available of $508,568, so the Commission believes this does not represent a misuse of
   AmeriCorps finds. Administrative costs are now allocated to the AmeriCorps program based
   on the Public Assistance Cost Allocation Plan (PACAP). Costs identijied through PACAP
   include expenditure of both AmeriCorps finds and State of Illinois funds. The AmeriCorps
   costs identijied through PACAP are greater than the expenditures associated with the
   AmeriCorps funds. The costs reported on the December 31, 2004, FSR were overstated due to
   the fact that the PACAP costs were used. Department of Human Services program andjscal
   staff have developed an improved method for completing the FSR. Actual expenditures of
   AmeriCorpsJirnds are now being reported on the FSR, rather than the total as determined by
   the PACAP since those expenditures are also used to determine the Federal draw offunds.
   AmeriCorps program staffwill review the FSR before it is submitted.

    The Commission requests that the $41,407 overstatement of costsfrom the December 31,
    2004, FSR not be considered questioned AmeriCorps costs since they were not Federal fund
    expenditures. "
Auditor's Comment

   We consider the Commission response to be adequate to correct the noncompliance issue.
   However, we recommend that the Corporation coordinate with the Commission to resolve the
   FSR overstatement issue and ensure that controls over the preparation of FSRs are adequate.


                    Significant Administration grant matching costs claimed may not have been
                                                                       -   A- to achieve its
                    necessary and reasonable for the Illinois AmeriCorps program
                    objectivds. The Administrative grant requires a Commission "one to one"
                    dollar match to claimed Federal expenditures. To meet this reguirement, the
                    Commission included, among other items, portions of Illinois state grants to
                    outside organizations. One of these grants was to the Youth Network
                    Council. Amounts claimed as Administrative match during the audit period
                    totaled $874,707.

                    OMB Circular A-87 - Cost Principlesfor State, Local, and Indian Tribal
                    Governments, Section C.1 .a,, provides that to be acceptable match, costs
                    must "be necessary and reasonable for proper and efficient performance and
                    administration of Federal awards."

                    From the information provided by the Commission, it appears that the
                    portions of the Illinois' State grants to the Youth Network Council used for
                    Administrative Grant match were not "necessary and reasonable", as
                    required in the Circular.

                    We question whether these costs were necessary and reasonable to meet
                    objectives of the Illinois AmeriCorps program. Accordingly, we have
                    questioned the matching costs claimed. Since there is a corresponding one-
                    to-one relationship between the "matching" and "Federal" funds on the
                    Administration grant, $874,707 is shown as questioned Federal funds.

Commission Response

    "The Commission requests that the use of the Youth Network Council (nvqfunding for
   training associated with the delivery of youth service programs be considered an approved
   match source given that a similar request to use such funding as match was previously
   approved by the Corporation. Please see the attached letter dated March 7, 2001,fiom Mr.
   James E. Phipps, CNCS Senior Grants Ofleer, which states that similar funds used for
   evaluation and training by the State's TEEN Reach program meet the criteria as matchfor
   the administrative award. The Commission subsequently used this basisfor establishing a
   matchingfunds source. As the use of such funding was previously approved as a match
   source by the Corporation, and as no subsequent notice has been issued stating that the use of
   such expenditures as a match source is not allowed, the Commission requests that thefunds
   paid to YNC be allowed as the program S match. "
Auditor's Comment

       With respect to the matching issue, and as stated in our comments in Exhibit D, we believe
       that the Illinois State mant to the Youth Network Council does not meet the OMB Circular
       A-87 standard that a &st is allowable if it is "...necessary and reasonable for pope; and
       efficient performance and administration of Federal awards". and is ". ..allocable to Federal
       awards under the provisions of this Circular."


Recommendations

           1. We recommend that the Corporation instruct the Commission to establish improved
              communication links and controls to assure the accuracy of data reported on FSRs.

          2. We recommend that the Corporation document its approval of the use of State
             grants or recoup the excess Federal share resulting from the match shortfall.

Commission Response

       See Commission Responses to the individual findings.

Auditor's Comment

       See Auditor's Comments on the individual findings.


Finding No. 3

      The Commission did not follow prescribed regulatory and provisional requirements in
      performing the PDAT grant. We identified the following deficiencies:

          -
          a.    In administering the PDAT Grant, the Commission did not obtain required prior
                written approval from the Corporation for two subgrants (Public Allies and
                Illinois Public Health Association). (Provision Reference: Provisionsfor
                Program Development and Training, Disability Placement and State
                Administrative Awards, November 2003, No. 4. Budget and Programmatic
                Changes). These subgrants were not in the original approved PDAT budgets.

                The Commission did not adhere to this Provision and neither the Commission nor
                the Illinois DHS, which provides administrative support to the Commission,
                detected the deviation from this requirement.
             Without the Corporation's knowledge, funds were awarded to a subgrantee for an
             objective that may not have been considered necessary to meet the grant's purpose
             and conditions.

Commission Response

       "The Commission will establish controls to ensure that all required approvals are obtained
      prior to the initiation of subawards associated with the PDATgrant. "
Auditor's Comment

      We consider the Commission's response to be adequate.


         b. Costs claimed under the PDAT grant include payments to various subgrantees. The
         -
            subgrant with the Illinois Public Health Association was pre-funded $90,746, which
            resulted in a violation of AmeriCorps Provisions, State regulations, and incorrect
            FSR reporting of program year expenditures. (Provision Reference: Provisions for
            Program Development and Training, Disability Placement and State Administrative
            Awards, November, 2003, No. 12. Financial Management Provisions and No. 15,
            Payments Under the Grant). The Provisions state that, "The amount of advance
            payments requested by the Grantee must be based on actual and immediate cash
            needs in order to minimize Federal cash on hand ... "

             The Provisions referenced above and the related State Regulations provide for
             reimbursement of allowable costs actually incurred during performance of the
             grants and reporting of actual costs incurred in grant performance. It appears that
             the Commission's intent was to get these monies obligated during the State's fiscal
             year in which they became available.

             The effect of this condition is that monies were paid in advance of the actual
             performance of the service to the grant, in violation of the above referenced
             Provisions. In addition, FSR reporting would be misleading in light of the
             prepayments. Of the $90,746 provided and charged to the PDAT Grant,
             expenditures totaled only $24,574. Therefore the difference of $66,172 was
             questioned. We note that, subsequent to the period covered by the audit, this
             condition was reversed; i.e., expenses incurred by subgrantees
                                                                     -        exceeded amounts
             funded by the Commission.
Commission Resuonse

        "The Commission will ensure that ifsubgrantee prepayments are necessary, the guidelines
       contained in the AmeriCorps Provisions Nos. 12 and 15 (November 2003), andor any
       revisions to those provisions, are followed. The Commission believes that allfirfirnds
       advanced to the Illinois Public Health Association (IPHA) were spent on legitimate
      AmeriCorps expenses and we request that thesefinds not be disallowed. In the firture, the
       Commission will ensure that the subcontracts with itsfiscal agents are closed out prior to
       the end ofthe program year or we wiNfollow State regulations that require unexpended
      finds to be returned and reissued, i f appropriate. "

Auditor's Comment

      We consider the Commission's response to be adequate.


Recommendation

      We recommend that the Corporation recoup payments in excess of expenditures and
      instruct the Commission to:

   1. Establish controls to ensure that all required approvals are obtained prior to initiating
      subawards.

   2. Establish controls to ensure that, if subgrantee prepayments are considered necessary in the
      performance ofthe grant, the guidelines contained in the above referenced provisions are
      followed.


Commission Resuonse

       Commission responses related to the recommendations are incorporated in the comments
       on individual findings.

Auditor's Comment

      We consider the Commission's response to be adequate.


Finding No. 4

      The Commission and subgrantees did not submit FSRs on a timely basis.

      As part of our compliance review, we tested the timeliness of all subgrantees' FSR
      submissions. We found that the Commission's subgrantees were not submitting FSRs on a
      timely basis, as required by AmeriCorps Special Provisions 16(a), Financial Status and
      Progress Reports (July 2003). In accordance with that Provision, two FSRs are required
      annually and the final annual FSR should be submitted within 90 days of the close of the
      program year.

      At the Commission, we examined 26 FSRs and found 12 late, or 46 percent of the
      submitted FSRs. At the subgrantee level, we examined 232 FSRs and found 78 late, or 34
      percent of the submitted FSRs.

      We believe the cause of this condition is that the Commission has not placed sufficient
      emphasis on the importance of submitting timely FSR information.

      As a result of this condition, the Commission was not able to submit its consolidated FSRs
      on a timely basis. This is a violation of the grant terns and might result in, or fail to
      disclose on a timely basis, potential funding misapplications.

Recommendation

      We recommend that the Corporation instruct the Commission to reemphasize to its
      subgrantees the importance of submitting timely and accurate financial reports.


Commission Response

       "The Commission acknowledges that several vacancies within its staff created some
       historical workloadpressures and causedproblems with the timely submission of required
       documentation. The Department of Human Services has recently authorized the hiring of
       additional staff to the Commission, including an Executive Director, an AmeriCorps
      Program Manager, and an additional Program Oficer. The timely submission of all
       documentation required by the Corporation will continue to be a prior@ and the [sic] we
       will re-emphasize to our subgrantees the importance of submitting timely and accurate
      jnancial reports. "
Auditor's Comment

      We consider the Commission's response to be adequate.


Finding No. 5

      The Commission did not ensure that an advance of grant funds to Literacy Volunteers of
      America (LVA) was deposited in an interest bearing account, as required by AmeriCorps
      Provisions (Provision Reference: AmeriCorps General Provisions, No. 264 July 2003,
      Payments Under the Grant, Interest-Bearing Accounts).
       The Commission did provide guidance to subgrantees regarding advance payments
       including interest-bearing accounts. One subgrantee, Rend Lake College, followed the
       guidance and returned interest of $6,354; LVA did not.

       The opportunity to earn interest was not recognized by LVA until a new treasurer was
       appointed more than 18 months after the advance funds were received. As a result, we
       calculated that $7,532 of interest was lost. The calculation is shown on Schedule A-1, Note
       7, of this report.

Recommendation

       Although the Commission has revised its funding procedures, which should preclude a
       subgrantee from receiving significant over-funding in the future, we recommend that the
       Corporation recoup the lost interest amount from the Commission.

Commission Response

       "The requirement to deposit Federal grant finds into interest bearing accounts is apart oj
      each program S contract with DHS. Literacy VolunteersofAmerica's (LVA)failure to do
      so should be considered an anomaly of the State's AmeriCorps programs. However,
      Program OfJicers will work to ensure that grant recipients are aware thatfederal funds
      must be deposited in interest bearing accounts and special attention to this requirement
      will be given during the Program Director's Training and meetings with new program
      directors. "

Auditor's Comment

      We consider the Commission's response to be adequate. Our recommendation with respect
      to lost interest, however, remains unchanged.


Finding No. 6

      The Commission did not have adequate monitoring or other procedures in place for
      AmeriCorps members' living allowance payments or service hour reporting.

      a. At SIUE, an individual received $13,440 in living allowance payments that exceeded
      -
         the maximum allowable payment by $3,840. The excess payments were for service
         under the AmeriCorps grant for a prior year's service, although this person had never
         been formally enrolled as a member during the Program Year.
          It appears that this individual may have been brought in to fill a vacant member space
          near the end of Program Year 2001-02. However, the person was never formally
          enrolled in the Program as a Member in that year (2001-02). Enrollment of the
          individual was made in the subsequent year (2002-03) and payments were charged to
          that grant year. The basic cause of this condition is that there was no control ceiling
          established for the SIUE Payroll Department to limit the amount of total member
          payments. The SIUE Payroll Department continued to pay the individual an
          incremental Living allowance amount until advised by the Program Office.

          The living allowance ceiling for the 2002-03 year was $9,600. At equal incremental
          payments of $480 per pay period, that would come to 20 payments to meet the full
          $9,600 Living allowance. The individual received 28 payments, for a total of $13,440,
          or $3,840 in excess of the living allowance ceiling for the year. The Federal share of
          that is $3,264 (85 percent of $3,840). With the addition of related FICA and health
          care costs, the total overpayment on the grant is $4,010.

          The effect of this condition results in an overpayment of living allowances and other
          member costs on the grant, and indicates a breakdown in communications and internal
          controls.

Commission Response

       "AmeriCorps Program Officers became aware of this issue during their monitoring visits
      of the Southern Illinois University at Edwardsville. Special emphasis will be made to
      eiwure that all Illinois ~ m e r i ~ o r b s ~ r o ~ are
                                                           ram aware
                                                                s ofthe uncompromising importance
      placed by the Corporation on enrolling members into the Web-Based Reporting System
      -(WBRS) prior to i&uing living allowances. Program staffwill emphasize the 30-day policy
      on enrollment ofmembers at the Program Director Training. "

Auditor's Comment

      We consider the Commission's response to be adequate to correct the noncompliance issue.
      However, we still recommend that the Corporation recoup the living allowance
      overpayments.


      b. The University of Chicago reported incorrect monthly service hours for a member.
      -
         The member was not enrolled until May 1,2002, but the service hours claimed started
         in October, 2001. It appears that WBRS input was not accurate. Service hours
         claimed in the months after enrollment included hours from earlier months.

          ArneriCorps Provisions require subgrantees to keep track of each member's progress
          toward the hours required for an education award. (Provision Reference: AmeriCorps
          Special Provisions, No. 11, July 2003, Living Allowances, Other In-Service BeneJits
           and Taxes).

           We did not receive an explanation from the subgrantee as to the cause of this
           noncompliance. As a result, a member received credit for service hours that were not
           earned during the member's service period.


Commission Response

       "The Commission shares the belief that accurate WRBS reporting is a basic and necessary
      requirement of its subgrantees. The Commission will highlight the importance placed on
      accurate WBRS reporting to its subgrantees duringfuture Program Director Training. "

Auditor's Comment

       We consider the Commission's response to be adequate.

Recommendations

       1. We recommend that the Corporation attempt to recover the overpayment and emphasize
          to subgrantees the need for controls to limit living allowances to the maximum amount
          imposed by regulation.

      2. Until the cause of this condition is known, it is difficult to recommend a corrective
         action. However, the Corporation should at least emphasize to the Commission the
         importance of accurate WBRS reporting.

Commission Response

      Commission responses related to the recommendations are incorporated in the comments
      on individual findings.

Auditor's Comment

      Refer to Auditor's Comments for each finding.


Finding No. 7

   The Commission's monitoring procedures did not detect that the subgrantee had not complied
   with all required grant documentation and reporting provisions. We identified the following
   deficiencies:
      a.
      -      A consultant was paid by Rend Lake College in excess of the maximum daily
             amount allowed by AmeriCorps provisions. Rend Lake College paid a consultant
             $800 plus travel expenses for a one-day workshop. This expenditure exceeded the
             $443 maximum allowed under AmeriCorps Provisions. (Provision Reference:
             AmeriCorps General Provisions, No. 22e, July 2003, Financial Management
             Provisions, Consultant Services).

             The subgrantee was aware of the consultant limit, but believed the $800 charge
             included costs for items such as preparation time and handout materials. In the
             future, consultants will be requested to prepare an itemized bill listing all costs.

             This condition resulted in unallowable costs of $357 being charged to the
             AmeriCorps grant.

Commission Response

      "Program Oficers will emphasize the maximum allowable consultantfees in the
      AmeriCorps program during both monitoring visits and the Program Director Training.
      Reference will be made to the consultantfee limit applying to allfeespaid, bothfor
      AmeriCorps billed services and for consultantfees used as matchingfunds. Programs will
      be advised to document appropriate preparation costs and other expenses and not simply to
      bill for total consultant expenditures. "

Auditor's Comment

      We consider the Commission response to be adequate with respect to correcting the
      weakness. However, we continue to recommend that the Corporation seek to recoup
      unallowable costs.


      b.     The University of Chicago and Rend Lake College did not have adequate
             documentation for some donated office space, office supplies, telephone and fax
             services claimed for in-kind matching purposes. Support included statements such
             as $2,000 market price for office space, supplies, telephone and fax services. No
             information to validate the accuracy of the claimed donation, such as the square
             footage price, type of supplies, number of phone calls, etc., was provided.

Commission Response

      "The Commission will impose stricter requirementsfor documentation of in-kind matching
     finds upon itsprograms. Programs wiN be required to detail the value ojany donated
     space or equipment used as in-kind matchingfunds. Programs will be asked to detail and
      break-out any shared ofice space, equipment, or communication expenditures and
      document the AmeriCorps portion for Program Oficers to monitor. "
Auditor's Comment

      We consider the Commission response to be adequate.


      c.
      -      Rend Lake College incorrectly claimed a portion of audit costs required by Office
             of Management and Budget (OMB) Circular A-1 33 as a direct grant cost under the
             Internal Evaluation category.

             The AmeriCorps Provision on administrative costs states:

                "[A]dministrative costs include costs for financial, accounting, auditing,
                contracting or general legal services except in unusual cases where they
                are specifically approved in writing by the Corporation as program
                costs." (Provision Reference: AmeriCorps General Provisions, No. 23a,
                (July 2003), Administrative Costs, Dejnitions).

             Since the Corporation did not provide written approval to Rend Lake College to
             charge the audit cost directly to the grant, this practice does not comply with the
             AmeriCorps Provision.

             The cause of this mischarging of audit costs appears to be a misunderstanding of the
             Internal Evaluation cost category. As required by the AmeriCorps Provisions, the
             grantee must track progress toward program objectives and monitor the quality of
             the program's service activities. The costs of these actions should be included under
             the Internal Evaluations category.

             The result of this condition was an improper charge to the grant of $4,100 over the
             three years covered by this audit. These costs should be reclassified as
             administrative costs.

Commission Res~onse

      "The Commission will reinforce the allowable expenses associated with the administrative
      costs during the Program Director Training."


Auditor's Comment

      We consider the Commission response to be adequate. However, our recommendation with
      respect to the questioned cost remains unchanged.
Recommendation

       We recommend that the Corporation recoup unallowable costs plus administrative costs,
                                                       -                        -
       and instruct the Commission to vrovide its subgrantees with additional guidance and
       training on the requirements of the above-referenced provisions.


Commission Resvonse

       Commission responses related to the recommendations are incorporated in the comments
       on individual findings.

Auditor's Comment

       Refer to Auditor's Comments for each finding.


Internal Controls Over Financial Re~orting

In planning and performing our audit of the award costs presented in Exhibits A through D for the
period July 1,2001, through December 3 1,2004, we considered the Commission's internal
controls in order to determine our auditing procedures for the purpose of expressing our opinion on
the financial schedules and not to provide assurance on the internal controls over financial
reporting.

The Commission's management is responsible for establishing and maintaining internal controls.
In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs on internal control policies and procedures. The objective of
internal controls is to provide management with reasonable, but not absolute, assurance that assets
are safeguarded against loss from unauthorized use or disposition, and that transactions are
executed in accordance with management's authorization and recorded properly to permit the
preparation of the financial schedules in accordance with generally accepted accounting principles
of the United States of America. Because of inherent limitations in any internal controls, errors or
irregularities may nevertheless occur and not be detected. Also, projection of any evaluation of the
internal controls to future periods is subject to the risk that procedures may become inadequate
because of changes in conditions or that the effectiveness of the design and operation of policies
and procedures may deteriorate.

Our consideration of internal controls would not necessarily disclose all matters of internal control
over financial reporting that might be reportable conditions. Under standards established by the
American Institute of Certified Public Accountants, reportable conditions involve matters coming
to our attention relating to significant deficiencies in the design or operation of the internal
controls, which, in our judgment, could adversely affect the entity's ability to record, possess,
summarize and report financial data consistent with the assertions of management in the financial
schedules. Material weaknesses are reportable conditions in which the design or operation of one
or more of the internal control components does not reduce, to a relatively low level, the risk that
errors or irregularities in amounts, which would be material in relation to the financial schedules
being audited, may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions.

Our audit disclosed the following internal control weaknesses:

Finding No. 8

       The Commission did not have controls in place to ensure that SIUE took appropriate action
       when information obtained from a criminal background check was inconsistent with
       information provided by an applicant on the enrollment form.

       Results of a criminal background check on an AmeriCorps applicant were inconsistent with
       information provided by the applicant on the SIUE application. There is no documentation
       or other evidential matter available to indicate that this inconsistency, and apparent
       erroneous information, was adequately considered by the subgrantee's Program Office in
       the evaluation of the applicant's submission.

       The process for applicant submission reviews, as described to us during the audit, is to have
       the applicant complete the SIUE (University) application information form, including
       information regarding prior misdemeanor or felony convictions. The applicant certifies to
       the accuracy of the information provided. A request for a criminal background check is
       made and, upon receipt, the results of the check are conveyed to and discussed with
       (usually telephonically) the Program Director. To our knowledge, there is no control
       procedure to match the information on the background check with the information which
       the applicant certified on the application.

       The effect of this condition is that it brings into question the adequate screening of the
       member due to the erroneous information on the application. The applicant may well have
       been accepted into the program regardless of the conviction history, if the Program Office
       had full knowledge and documented its consideration for the decision. However, we have
       questioned this member's costs claimed based on the erroneous application response and
       the fact that the Program Office was unaware of the inconsistency.

       The amount questioned is $5,028, including living allowance and other member support
       costs.

Recommendation

       We recommend that the Corporation recoup unallowable costs plus applicable
       administrative costs, and require that the Commission emphasize to its subgrantees
                                                                                 -        the need
       for close controls over the member application review and approval processes.
Commission Res~onse

         "The Commission will reiterate that programs must document their findings following
         criminal background checks of members and the procedure for doing so. During the
         Department's Program Director Training, Commission starffwill emphasize the importance
         of
     0        maintaining strict procedures for addressing issues related to a member S prior criminal
              history;

              the need tofollow-up and obtain a consistent record between background checkfindings
              and applicant member submission of information; and,

     0        applicant criminal history and member submission thresholdsfor acceptance into, and
              dismissalj?om, the AmeriCorps program. "

Auditor's Comment

         We consider the Commission's response to be adequate. However, our recommendation
         with respect to the unallowable costs remains unchanged.



Finding No. 9

         The Commission could improve its reporting on monitoring visits by monetizing findings
         where possible, and including a "follow-up" section to report on the current status of prior
         findings.

         These techniques are a basic management tool to provide the reviewed entity and other
         interested parties with additional information regarding the relative significance of issues
         and progress toward correcting weaknesses noted in earlier audits.

         Without this additional information significant issues may not be prioritized and repeat
         findings could go on for long periods without correction.

Recommendation

         We recommend that the Corporation instruct the Commission to monetize findings where
         possible and include a follow-up section in Commission monitoring reports. The
         Commission has an active monitoring program that reported many of the issues included in
         this report. Subgrantee corrective actions resulting from the Commission monitoring were
         also noted.
Commission Response

       "The Commission's AmeriCorps Program Officerswill develop aprogram follow-up
      section to their internal monitoring reports and will notiJS/subgrantees prior to site visits of
      outstanding issues that need to be addressed Commission staflwill attempt toplace a
      monetary value on findings, where possible. "


Auditor's Comment

      We consider the Commission's response to be adequate.




Leonard G. Birnbaum and Company, LLP
Alexandria, Virginia
September 14,2005
                           Follow-up On Pre-Audit Suwey Findings
                               Pre-Award Survey Report of the
                Illinois Commission On Volunteerism and Community Service



We were advised that the last Pre-Award survey had been conducted several years prior to the
period covered under the scope of this engagement. Since considerable time has elapsed since the
issuance of the report, and there have been various changes and actions taken by the Commission,
we did not place reliance on the findings of that report 41did we attempt to make any follow-up
reviews on any conditions or recommendations from that report. This was consistent with the
guidance from the OIG.

However, there was a "StateAdministrative Standards Review" made in 2001. We reviewed the
fmdings of that report and considered it in our risk and planning process. On October 29,2003, a
letter was issued from the Corporation to the Commission stating that the Commission had met all
the requirements of the State Administrative Standards.
                              Appendix A


Response of the Illinois Commission on Volunteerism and Community Sewice
                          535 W. Jefferson s Springfield, Illinois 62702

January 13,2006


Mr. Ronald F. Huritz
Office of Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW., Suite 830
Washington, DC 20525


Dear Mr. Huritz:

This responds to your office's draft audit report of the Illinois Commission on Volunteerism and
Community Service (Commission) which was forwarded to me under Ms. Carol Bates'
December 16,2005 cover letter. I understand that this audit addresses costs claimed by the
Commission md its subgrantees from July 1,2001 through December 31,2004 for grants
awarded by the Corporation for National and Community Services (Corporation). The Illinois
Commission appreciates the work your office has done in ideniifying these issues and we look
forward to addressing these findings in a manner that is satisfactory to your office. Our response
to each finding is shown below.

l a - The audit found that five of the Commission's subgrantee programs did not comply the
      background check requirements of AmeriCorps Special Provision No. 6-h (July 2003). This
      Provision states, "AmeriCorps programs with members or employees who have substantial
      direct contact with children (as defined by state law), or who perform service in the homes
      of children or individuals considered vulnerable by the program, (including the frail, elderly,
      and disabled) shall, to the extent permitted by state and local law, conduct criminal record
      checks on these members or empl~yeesas part of thz screening process."

    State of Illinois statutory language specific to volunteer workers or employees of not-for-
    profit organizations and relative to the AmeriCorps Provision was not found. However,
    several references to criminal background check requirements for employees working in
    licensed child care institutions, day care centers, and schools were found and these
    references all contained the generally ihe same following definition of the phrase "access to
    children":

         "...any person who is permitted to be alone outside the visual and auditory supervision
         of (staff) with children receiving care..." (See attached 89 Ill. Adm. Code 385.20.)

    The subgrantee programs in question submit that their AnieriCorps members were not
    subject to the requirements of the criminal background check Provision since their members
       had, at no time, unsupervised access to children. However, the Commission wishes to
       convey to the Corporation that it will advise all future subgrantees that even programs that
       do not anticipate members having- "unsuvewised access" to children must consider the
       locations in which programs will operate and, for those programs where unsupervised
       access to children is a possibility, background checks need to be conducted as a safeguard of
       the program.

       As for the recommendation that the Corporation recoup questioned costs, including
       applicable administrative costs and education awards, the Commission respectfully suggests
       that even if it is determined that background checks were required for these five programs
       within the guidance of AmeriCorps Provision 6-h and State statute, such funding should
       strictly be a matter of program compliance and the Commission believes it would not be
       appropriate to disallow costs associated with members on the basis of missing criminal
       background checks.

   -
lb Southern Illinois University at Edwardsville (SIUE) is aware that they inappropriately
                                      . -
   destroyed member files and the vropram is aware that their urocedures must chance to .
                                                                                        J


   ensure future compliance. The requirement to maintain member files for seven years is
   contained in the program's contract with the Department of Human Services (DHS) and
   DHS will formally notify SIUE of this requirement and of the AmeriCorps General
   Provision Number 27, Retention of Records. Furthermore, the retention of records will be
   reinforced during training conducted for all program directors and during visits conducted
   by the Commission's AmeriCorps Program Officers.

lc - Site visits by AmeriCorps Program Officers identified the issue of missing documentation in
     member files, as well as the lack of timely submission of member data to the Corporation.
     Monitoring procedures will be refined to insure adequate oversight of programs that have
     additional issues regarding member records. Program Officer staff will continue to monitor
     member files for completeness and will research &d improve its method for holding
     programs accountable for timely submission of enrollment information.

2a - The amount of federal expenditures was overstated on the Financial Status Report (FSR) for
     the quarter ending December 3 1,2004. However, the Federal draw did not exceed the grant
     award available of $508,568, so the Commission believes this does not represent a misuse of
     AmeriCorps funds. Administrative costs are now allocated to the AmeriCorps program
     based on the Public Assistance Cost Allocation Plan (PACAP). Costs identified through
     PACAP include expenditure of both AmeriCorps funds and State of Illinois funds. The
     AmeriCorps wsts identified through PACAP are greater than the expenditures associated
     with the AmeriCorps funds. The costs reported on the December 31,2004 FSR were
     overstated due to the fact that the PACAP cost were used. Deuartment of Human Services
     program and fiscal staff have developed an improved method for completing the FSR.
                                                              - .
     Actual expenditures of AmeriCorps funds are now beine reported on the FSR rather than
     the total as determined by the PACAP since those expenditures are also used to determine
     the federal draw of funds. AmeriCorps program staff will review the FSR before it is
     submitted.
     The Commission requests that the $41,407 overstatement of costs from the December 31,
     2004 FSR not be considered questioned AmeriCorps costs since they were not federal fund
     expenditures.

2b - The Commission requests that the use of the Youth Network Council (YNC) funding for
     training associated with the delivery of youth service programs be considered an approved
     match source given that a similar request to use such funding as match was previously
     approved by the Corporation. Please see the attached letter dated March 7,2001 from Mr.
                 ..
     James E. Phiovs.. CNCS Senior Grants Officer. which states that similar funds used for
     evaluation and training by the State's TEEN Reach program meet the criteria as match for
                                                                                            -
     the administrative award. The Commission subseauentlv used this basis for establishing a
     matching funds source. As the use of such funding was previously approved as a match
     source by the Corporation, and as no subsequent notice has been issued stating that the use
     of such expenditures as a match source is not allowed, the Commission requests that the
     funds paid to YNC be allowed as the program's match.

3a - The Commission will establish controls to ensure that all required approvals are obtained
     prior to the initiation of subawards associated with the PDAT grant.

3b - The Commission will ensure that if subgrantee prepayments are necessary, the guidelines
     contained in the AmeriCorps Provisions Nos. 12 and 15 (November 2003), and/or any
     revisions to those Provisions, are followed. The Commission believes that all funds
     advanced to the Illinois Public Health Association (IPHA) were spent on legitimate
     AmeriCorps expenses and we request that these funds not be disallowed. In the future, the
     Commission will ensure that the subcontracts with its fiscal agents are closed out prior to
     the end of the program year or we will follow State regulations that require unexpended
     funds to be returned and reissued, if appropriate.

4 - The Commission acknowledges that several vacancies within its staff created some
    historical workload pressures and caused problems with the timely submission of required
    documentation. The Department of Human Services has recently authorized the hiring of
    additional staff to the Commission, including an Executive Director, an AmeriCorps
    Program Manager, and an additional Program Officer. The timely submission of all
    documentation required by the Corporation will continue to be a priority and the we will re-
    emphasize to our subgrantees the importance of submitting timely and accurate financial
    reports.

5 - The requirement to deposit federal grant funds into interest bearing accounts is a part of
    each program's contract with DHS. Literacy Volunteers of America's (LVA) failure to do
    so should be considered an anomaly of the State's AmeriCorps programs. However,
    Program Officers will work to ensure that grant recipients are aware that federal funds must
    be deposited in interest bearing accounts and special attention to this requirement will be
    given during the Program Director's Training and meetings with new program directors.

6a - AmeriCorps Program Officers became aware of this issue during their monitoring visits of
     the Southern Illinois University at Edwardsville. Special emphasis will be made to ensure
        that all Illinois AmeriCorps programs are aware of the uncompromising importance placed
                                                                               -  -
        by the Corporation on enrolling members into the Web-Based Revortinp. Svstem  (WBRS)
        prior to issuing living allowances. Program staff will emphasize h e 30-day     on '
        enrollment of members at the Program Director Training.

6b - The Commission shares the belief that accurate WRBS reporting is a basic and necessary
     requirement of its subgrantees. The Commission will highlight the importance placed on
     accurate WBRS reporting to its subgrantees during future Program Director Training.

7a - Program Officers will emphasize the maximum allowable consultant fees in the
     AmeriCorps program during both monitoring visits and the Program Director Training.
     Reference will be made to the consultant fee limit applying to all fees paid, both for
     AmeriCorps billed services and for and consultant fees used as matching funds. Programs
     will be advised to document appropriate preparation costs and other expenses and not
     simply to bill for total consultant expenditures.

7b - The Commission will impose stricter requirements for documentation of in-kind matching
     funds upon its programs. Programs will be required to detail the value of any donated
     space or equipment used as in-kind matching funds. Programs will be asked to detail and
     break-out any shared office space, equipment, or communication expenditures and
     document the AmeriCorps portion for Program Officers to monitor.

7c - The Commission will reinforce the allowable expenses associated with the administrative
     costs during the Program Director Training.

8 - The Commission will reiterate that programs must document their findings following
        criminal background checks of members and the procedure for doing so. During the
        Department's Program Director Training, Commission staff will emphasize the importance
        of:

             maintaining strict procedures for addressing issues related to a member's prior
             criminal history;

             the need to follow-up and obtain a consistent record between background check
             findings and applicant member submission of information; and,

             applicant criminal history and member submission thresholds for acceptance into, and
             dismal from, the AmeriCorps program.

9   -   The Commission's AmeriCorps Program Officers will develop a program follow-up section
        to their internal monitoring reports and will notify subgrantees prior to site visits of
        outstanding issues that need to be addressed. Commission staff will attempt to place a
        monetary value on findings, where possible.
Thank you very much for the opportunity to respond to the draft audit. I look forward to
working with you to resolve these issues. If you have any questions, please feel free to contact
me at 2171557-0193.


Sincerely,



S C O ~ M .Kimmel
Executive Director
Illinois Commission on Volunteerism and Community Service



cc:    Dan Blair, Fiscal Office
       Kim Fomero, Bureau Chief

Enclosures
                         Appendix B


Response of the Corporation for National and Community Service
                                    gxyfdkAL
                                           &
                                    COMMUNITY
                                    SERVICE-




To:           Carol Bates, Acting Inspector General
                                      . ,
                                        .,, : < . , ... , , ,. <.
                         , . " ,
                                              ,
                                                  ,,
                                                       I
                                                           ,       <;

From:         Magaret Rosen%&fy, Director of Grants.Management
                               1                           ,/'

Cc:           Director of -AmeriCorps
              Audit Resolution Coordinator

Date:          January 17,2006

Sub:          Response to OIG Draft Audit Report: Audit of Corporation for National and
              Community Service Grants Awarded to the Illinois Commission on Volunteerism
              and Community Service


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the Illinois Commission on Volunteerism and Community Service. The Corporation
has also reviewed the response from the Commission. We are addressing only two issues at this
time. We will respond to all findings and recommendations in our management decision when
the final audit is issued; we have reviewed the findings in detail; and worked with the
Commission to resolve the audit.

As noted in the draft summary, the auditors questioned about $1,670,000 in claimed grant and
match costs. They questioned $480,719 because programs did not always conduct criminal
background checks on members who were providing service to children. The Commission
followed Illinois state law which does not require background checks on volunteers who are
always supervised as they provide service. However, the Commission agrees on the importance
ofbackground checks. As a result of the audit, it will require its AmeriCorps subgrantees to
conduct background checks on all future members who have contact with children, whether
supervised or not.

The auditors also questioned $874,707 in match costs claimed by the Commission. The
Commission notes that it received approval from the Corporation to use a similar source of funds
as match in 2001. The Corporation will review the past approvals during audit resolution and
anticipates allowing the costs if the sources are similar.

The Corporation will address the remaining questioned costs and other findings during audit
resolution after the audit is issued as final.




                           1201 New York Avenue, NW            *
                                                       Washington, DC 20525
                                 202-606-5000     *
                                                 www.nationalservict!.org
                          Senior Corps   * AmeriCorps * Learn and Serve America
